SIGAR                                                        Special Inspector General for
                                                              Afghanistan Reconstruction




                                                                         SIGAR 14-26 Audit Report



      Support for Afghanistan’s Justice Sector:
      State Department Programs Need Better
      Management and Stronger Oversight




                                                                             JANUARY
                                                                             2014
SIGAR 14-26-AR/State Department Support of Afghan Justice Sector
                                                     JANUARY 2014



SIGAR
                                                     Support for Afghanistan’s Justice Sector: State Department
                                                     Programs Need Better Management and Stronger Oversight

                                                     SIGAR 14-26 AUDIT REPORT
Special Inspector General for                        WHAT SIGAR FOUND
Afghanistan Reconstruction                           The Department of State’s (State) Bureau of International Narcotics and
                                                     Law Enforcement Affairs’ (INL) management and oversight of the Justice
WHAT SIGAR REVIEWED                                  Sector Support Program (JSSP) contract with PAE Incorporated (PAE)
                                                     limited its ability to assess the contractor’s performance and the JSSP’s
Since 2005, the Department of State
                                                     contribution to justice sector development. For example, PAE was required
(State) has spent at least $223 million on
                                                     to develop a case management system to track and record cases
justice sector development programs in
                                                     throughout Afghanistan’s justice system and propose a robust plan for
Afghanistan, including State’s Bureau of
                                                     ensuring the Afghan government could sustain the system. However, the
International Narcotics and Law
                                                     statement of work did not define what would be considered “robust” or
Enforcement Affairs’ (INL) programs to
                                                     “sustainable.” The requirement to deploy the system nationwide was also
train Afghan justice sector personnel
                                                     unrealistic and required subsequent modification. Specifically, under the
such as judges, prosecutors, and defense
                                                     May 2011 statement of work agreed to between INL and PAE, the case
attorneys. The Justice Sector Support
                                                     management system was supposed to be completed nationwide by May
Program (JSSP) is one of these programs
                                                     2012. However, geographic, logistical, and other challenges prevented PAE
and is comprised of three main
                                                     from expanding the electronic, internet-based case management system
components: regional training of justice
                                                     beyond 7 of 34 of Afghanistan’s provinces. As a result, INL modified the
sector officials, developing a case
                                                     contract by replacing the requirement for a nationwide system with one
management system, and building
                                                     that required implementation in only the seven provinces where it had
administrative capacity at Afghan
                                                     already been installed.
ministries.
                                                     INL was also required to track contract costs, but State officials said it is
In January 2013, INL signed a letter of
                                                     difficult to determine whether contract invoices and payments are
agreement with the International
                                                     accurate. Therefore, the risk remains that State could reimburse PAE for
Development Law Organization (IDLO), a
                                                     costs that have already been reimbursed or that are not allowable under
public international organization with a
                                                     the contract. Moreover, INL could not provide SIGAR PAE’s required
mission to promote the rule of law
                                                     monthly quality assurance reports covering nearly half the period of
worldwide, which transferred the regional
                                                     contract performance. INL could have used these reports to monitor the
justice training component from the
                                                     progress of the JSSP and the quality of PAE’s work.
contractor that previously implemented
the JSSP—PAE Incorporated (PAE)—to                   In addition, some of the performance metrics in the PAE contract, such as
IDLO.                                                the number of classes taught or hours PAE staff spent advising trainees,
                                                     focus on short-term outputs rather than long-term outcomes of the
This audit assesses (1) INL’s
                                                     program. INL officials told SIGAR that developing long-term outcome-
management of the JSSP contract and
                                                     oriented performance metrics for JSSP is challenging because the results
the extent to which the JSSP’s
                                                     from justice sector development efforts cannot be determined in the short-
contribution to the development of the
                                                     term because they take many years, if not decades, to fully realize. As a
Afghan justice sector can be measured,
                                                     result, JSSP’s contribution to the development of the Afghan justice sector
(2) the extent to which INL’s decision to
                                                     is unclear.
transfer the JSSP’s Regional Justice
Sector Training component—now known                  INL’s decision to transfer the Regional Justice Sector Training component
as the Justice Training Transition                   of the JSSP to the International Development Law Organization (IDLO)
Program (JTTP)—from PAE to IDLO affects              raises concerns about INL’s oversight of the $47.8 million IDLO program.
INL’ s oversight of the program, and (3)             This component, now known as the Justice Training Transition Program
State’s efforts to coordinate justice                (JTTP), was transferred from PAE to IDLO in January 2013, despite the
sector programs in Afghanistan across                management and financial challenges IDLO was facing at the time. For
U.S. government agencies.




       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
example, according to a State official working closely with the
                                                                          WHAT SIGAR RECOMMENDS
program, IDLO has faced high leadership turnover and
budgetary shortfalls that, according to IDLO’s Audit and                  SIGAR recommends that the Secretary of
Finance Committee, raise serious questions about the future               State (1) include in future JSSP and/or
sustainability of the organization. Furthermore, although INL             successor program contracts specific,
officials stated that the transfer to IDLO would result in lower          detailed explanations of the
costs, INL did not conduct a formal cost/benefit analysis to              requirements to which the contractor will
support this assertion or a “lessons learned” evaluation of               be held accountable as well as baseline
the work performed by PAE that could have been used to                    data and target indicators to be used for
help develop the JTTP. INL originally required PAE to conduct             evaluating program success; (2) expedite
a detailed evaluation of the JSSP’s Regional Justice Sector               completion of PAE’s evaluation of the
Training component in 2012. However, it is now expected to                JSSP’s Regional Justice Sector Training
be completed by the end of 2013.                                          component and ensure it is shared with
                                                                          IDLO immediately upon its completion so
SIGAR also found that INL has limited its authority to oversee
                                                                          that oversight can be provided in a timely,
IDLO’s work on the JTTP. In particular, INL’s letter of
                                                                          effective manner, and that the lessons
agreement with IDLO omits provisions that would give INL the
                                                                          learned identified in this evaluation are
authority to access IDLO records that is similar to its authority
                                                                          used in the design and implementation of
to access PAE records related to the JSSP. The letter of
                                                                          the JTTP; (3) renegotiate INL’s letter of
agreement with IDLO includes no clear provisions securing
                                                                          agreement with IDLO to include
INL’s right to directly audit IDLO or to access all records
                                                                          provisions that would secure the right of
showing how U.S. taxpayer funds are being spent. Such
                                                                          the U.S. government to audit and inspect
provisions are normally required by State to be included in
                                                                          IDLO records related to funds furnished
letters of agreement with other nations, but State officials
                                                                          to IDLO under the JTTP, and to obtain any
told SIGAR that this policy is not binding on agreements with
                                                                          information from IDLO necessary to
international organizations. State officials also told SIGAR
                                                                          evaluate the performance and
that the approved JTTP program proposal prepared by IDLO
                                                                          effectiveness of IDLO’s implementation
includes plans for conducting oversight, but SIGAR’s review
                                                                          of the JTTP and safeguard U.S. funds
of IDLO’s proposal found that these plans describe how IDLO
                                                                          dedicated to the program; and (4) in
will monitor and evaluate the JTTP, not how State will monitor
                                                                          cooperation with other U.S. agencies
and evaluate IDLO.
                                                                          managing rule of law programs in
State is taking action to coordinate justice sector programs in           Afghanistan, finalize the updates to the
Afghanistan across different U.S. government agencies.                    2009 U.S. Government Rule of Law
Through the U.S. Embassy in Kabul, State created the Office               Strategy within 3 months, so that timely
of the Coordinating Director of Rule of Law and Law                       decisions can be made to guide the
Enforcement (CDROLLE) in July 2010 to better coordinate                   development and coordination of current
justice sector programs. CDROLLE marked the first time that               and future justice sector programs in
the Embassy made rule of law a specific portfolio to be                   Afghanistan.
handled by an ambassador-rank official. Greater coordination
                                                                          In its comments on a draft of this report,
resulted in INL and U.S. Agency for International
                                                                          State agreed with recommendations one,
Development (USAID) officials realizing both agencies were
                                                                          two, and four, and partially agreed with
providing support for female Afghan judges. This led to INL
                                                                          recommendation three. State’s
ending its work in this area and allowing USAID to assume
                                                                          comments and SIGAR’s response are
full responsibility for that initiative. Embassy officials told
                                                                          reproduced in appendix III. This report
SIGAR they are currently updating the 2009 U.S. Government
                                                                          also includes, in appendix IV, a July 2013
Rule of Law Strategy for Afghanistan to, among other things,
                                                                          alert letter to the Secretary of State
assist them to identify overall goals for the Afghan justice
                                                                          regarding IDLO’s work on the JTTP.
sector and help them develop policies and programs to
                                                                          State’s comments on that alert letter,
achieve those goals. However, this strategy has not been
                                                                          and SIGAR’s response to State’s
finalized and there is no clear timeline for its completion.
                                                                          comments, are in appendix V.


For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 24, 2014

The Honorable John F. Kerry
Secretary of State


This report discusses the results of SIGAR’s audit of the State Department’s Bureau of
International Narcotics and Law Enforcement Affairs’ (INL) management of programs to
support the development of Afghanistan’s justice sector, specifically its management of the
Justice Sector Support Program (JSSP) and Justice Training Transition Program (JTTP). The
report includes four recommendations to (1) include in future JSSP and/or successor program
contracts specific, detailed explanations of the requirements to which the contractor will be
held accountable as well as baseline data and target indicators to be used for evaluating
program success; (2) expedite completion of PAE’s evaluation of the JSSP’s Regional Justice
Sector Training component and ensure it is shared with IDLO immediately upon its completion
so that oversight can be provided in a timely, effective manner, and that the lessons learned
identified in this evaluation are used in the design and implementation of the JTTP; (3)
renegotiate INL’s letter of agreement with IDLO to include provisions that would secure the
right of the U.S. government to audit and inspect IDLO records related to funds furnished to
IDLO under the JTTP, and to obtain any information from IDLO necessary to evaluate the
performance and effectiveness of IDLO’s implementation of the JTTP and safeguard U.S. funds
dedicated to the program; and (4) in cooperation with other U.S. agencies managing rule of law
programs in Afghanistan, finalize the updates to the 2009 U.S. Government Rule of Law
Strategy within 3 months to guide the development and coordination of current and future
justice sector programs in Afghanistan.
We received written comments on a draft of this report from State, which we incorporated, as
appropriate. State agreed with recommendations one, two, and four, and partially agreed with
recommendation three. State’s comments, along with our response, are reproduced in
appendix III. In addition, State included a September 11, 2013, correspondence responding to
SIGAR’s July 22, 2013, alert letter to the Secretary of State regarding our concerns with the
decision to transfer responsibility for the JSSP’s Regional Justice Sector Training component
from PAE to IDLO. The July 2013 alert letter is reproduced in appendix IV. State’s September
2013 correspondence and our response are reproduced in appendix V.
SIGAR conducted this work under the authority of Public Law No. 110‐181, as amended, and
the Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS



Background .................................................................................................................................................................. 2 
INL’s Management and Oversight of the JSSP Contract Limited Its Ability to Assess the Contractor’s
Performance and the Program’s Contribution to Justice Sector Development ....................................................... 4 

INL’s Transfer of the Regional Justice Sector Training Component to IDLO Raises Oversight Concerns............... 7 
State Is Taking Action to Coordinate Justice Sector Programs across U.S. Government Agencies ...................... 10 
Conclusion.................................................................................................................................................................. 12 

Recommendations .................................................................................................................................................... 13 
Agency Comments ..................................................................................................................................................... 13 
Appendix I - Scope and Methodology ....................................................................................................................... 16 

Appendix II - Description of Key U.S. Government Justice Sector Programs in Afghanistan ................................. 18 
Appendix III - Comments from the Department of State ......................................................................................... 20 
Appendix IV - SIGAR Alert 13-6, Serious Deficiencies Related to the Afghanistan Justice Training Transition
Program Administered by the Department of State, July 22, 2013 ....................................................................... 26 

Appendix V - Department of State’s September 11, 2013, Response to SIGAR’s Alert Letter ............................. 36 
Appendix VI - Acknowledgements ............................................................................................................................. 51 


TABLES

Table 1 - U.S. Embassy-Kabul Justice Sector Coordination Efforts......................................................................... 11 


FIGURES

Figure 1 - JSSP and JTTP Regional Training Locations in Afghanistan ..................................................................... 4 




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                                                                      Page i
ABBREVIATIONS

             CDROLLE                   Coordinating Director of Rule of Law and Law Enforcement
             COR                       Contracting Officer’s representatives
             IDLO                      International Development Law Organization

                                       Department of State’s Bureau of International Narcotics and Law
             INL
                                       Enforcement Affairs
             JSSP                      Justice Sector Support Program
             JTTP                      Justice Training Transition Program
             PAE                       PAE Incorporated
             State                     Department of State

             USAID                     U.S. Agency for International Development




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                         Page ii
Since reconstruction efforts in Afghanistan began in 2001, the U.S. government, the international community,
and the Afghan government have made improving Afghanistan’s justice system a priority. Key documents have
noted the importance of the justice sector, including the U.S. government’s Integrated Civilian-Military
Campaign Plan for Support to Afghanistan and the Afghan Government’s National Priority Programs focus on
strengthening Afghan rule of law and Afghan citizens’ access to justice.
The Department of State (State) has invested in a variety of rule of law programs since 2005, including
programs managed by its Bureau of International Narcotics and Law Enforcement Affairs (INL) to train Afghan
justice sector personnel.1 State also serves as the lead coordinator for U.S. justice sector development efforts
in Afghanistan, responsible for coordinating the activities of several U.S. agencies, including the U.S. Agency for
International Development (USAID) and the Department of Justice.
INL has spent approximately $205.5 million on its Justice Sector Support Program (JSSP) to provide training to
Afghan justice sector officials, to develop a case management system to track cases throughout Afghanistan’s
justice system, and to build the capacity and administrative skills of officials within Afghan ministries.2




Source: SIGAR analysis of State data.
Note: The Advanced Continuing Legal Education for Afghanistan course is an approximately 8 week course that covers a
variety of legal subject material.

Prior to January 2013, INL’s JSSP was operated under a cost-reimbursement contract with PAE Incorporated
(PAE), an Arlington, Virginia based firm that provides a wide range of construction, operation, maintenance,
training, and other services to the U.S. government and other countries around the world. In January 2013, INL
transferred the JSSP’s Regional Justice Sector Training component to the International Development Law
Organization (IDLO), an international organization based in Rome, Italy. IDLO’s stated mission is to promote the
rule of law worldwide. Following this transfer, the Regional Justice Sector Training component was renamed the
Justice Training Transition Program (JTTP), and INL now manages it separately from the remaining two
components of the JSSP, which are still operated by PAE.




1We use the term “justice sector personnel” to represent Afghans working in the justice sector such as judges, lawyers,
prosecutors, defense attorneys, criminal investigators.
2   This figure represents State’s JSSP expenditures from March 31, 2005 through May 31, 2013.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                    Page 1
This report assesses (1) INL’s management of the JSSP contract and the extent to which the JSSP’s
contribution to the development of the Afghan justice sector can be measured, (2) the extent to which INL’s
decision to transfer the JSSP’s Regional Justice Sector Training component—now known as the JTTP—from PAE
to IDLO affects INL’s oversight of the program, and (3) State’s efforts to coordinate justice sector programs
across U.S. government agencies.
To accomplish these objectives, we reviewed State contracts for the agency’s justice sector programs, the
contracts’ associated documentation, and the letter of agreement signed between State and IDLO for
implementation of the JTTP. We reviewed State and USAID federal policies and procedures governing the
implementation of contracts and letters of agreement. In addition, we analyzed U.S. government strategies and
other documentation on the goals and objectives of the JSSP, JTTP, and broader rule of law and justice sector
efforts. We interviewed State, USAID, PAE, and IDLO officials in Washington, D.C; Rome, Italy; and at several
locations in Afghanistan to gain a better understanding of their work developing and implementing justice
sector programs. We conducted our work from December 2012 through January 2014 in accordance with
generally accepted government auditing standards. Appendix I contains a more detailed discussion of our
scope and methodology.


BACKGROUND

U.S. government rule of law programs in Afghanistan focus on developing both the informal and formal justice
sectors. The informal sector consists of traditional dispute resolution, jirgas, and shuras and generally involves
local-level legal mediation through village elders and other community officials. The Afghan government
identifies jirgas and shuras as an important political pillar of the civil legal system in Afghanistan and defines
them as unprejudiced, impartial bodies that make decisions based on facts and logic. Jirgas and shuras have
played a role in resolving internal disputes in Afghanistan both at the village level and at higher levels involving
the country’s leaders. The U.S. government funds reconstruction programs intended to develop and support
Afghanistan’s informal justice sector. USAID’s Rule of Law Stabilization-Informal Program is one U.S.
government program that is designed to strengthen the informal justice sector. This program holds legal
workshops on Sharia law to help ensure that legal practitioners adhere to its requirements.
The formal justice sector—Afghan government legal institutions, such as the Afghan Supreme Court, and
government ministries, including the Ministry of Justice—also forms the focus of a number of U.S. government
programs. For example, in December 2009, we reported on U.S. government efforts to improve the security
provided to Afghan judicial officials in the performance of their duties.3 We found that, although the United
States has been the single largest contributor to Afghanistan’s justice sector, U.S. judicial security assistance
lacked key elements of a strategic approach and has, at times, been uncoordinated.
INL’s JSSP and JTTP programs are part of the U.S. government’s efforts to develop the formal justice sector in
Afghanistan. The JSSP is among the longest running rule-of-law programs in Afghanistan. The JSSP
implementation contract was initially awarded to PAE in May 2005; INL then re-competed the contract and
awarded it again to PAE in May 2010. INL officials act as contracting officer’s representatives (COR), while
State’s Bureau of Administration administers the contract through a contracting officer. INL officials were
generally responsible for designing program goals and objectives, determining the services PAE would be
required to produce under the contract, and monitoring and evaluating PAE’s performance under the contract.
As discussed above, INL transferred the JSSP’s Regional Justice Sector Training component to IDLO in January
2013, after renaming it the JTTP, while continuing to contract with PAE for the remaining two JSSP
components. INL transferred the JTTP to IDLO through a “letter of agreement,” according to which IDLO would
be paid $47,759,796 for program implementation. State guidelines define a letter of agreement as



3 SIGAR   10-3S, Actions Needed for a More Strategic Approach to U.S. Judicial Security Assistance, December 18, 2009.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                  Page 2
           “…an agreement between the U.S. government (USG) and a foreign government(s) under the
           terms of which a specific project is carried out. Such agreements reflect the commitments
           made by all parties to accomplish the project objectives. A [letter of agreement] is an
           umbrella agreement that establishes the framework of an agreement for a specific program
           purpose. Once the [letter of agreement] is established, multiple grants (and, in many cases,
           contracts) are awarded to various organizations to fulfill the program purpose within the
           framework of the agreement.”4
State Department guidance also states that a letter of agreement legally obligates agency funds to finance an
activity.5 According to State officials, the contribution of U.S. taxpayer dollars to IDLO through a letter of
agreement was permissible according to section 481 of the Foreign Assistance Act of 1961, as amended,
which authorizes the President to provide assistance to “any country or international organization…for
anticrime purposes.”6
In January 2013, INL paid IDLO $20 million to begin implementation of the JTTP and agreed to provide $27.8
million more to fund the program until May 31, 2015, contingent upon the success of the program. According
to IDLO’s JTTP program proposal, IDLO plans to conduct a review around January 2015 to determine whether
an extension of up to 6 additional months may be necessary to meet the program’s objectives. IDLO also plans
to provide regional training in Afghanistan that will continue the “positive aspects” of the training programs
carried out under the predecessor JSSP. IDLO plans to focus on transitioning responsibility for training Afghan
justice sector personnel to the Afghan justice ministries by the end of the program in 2015. In particular,
IDLO’s program proposal states, among other things, that the JTTP will raise the capacity of Afghan judges,
lawyers, and prosecutors to a level where further international assistance is no longer essential. The proposal
also states that IDLO will maintain regional offices in the majority of provinces where JSSP previously had
offices, except for the eastern border province of Paktia. In addition, the JTTP will open a new regional office in
the northeastern province of Badakhshan (see figure 1).




4 Department of State, Bureau of Administration, Office of the Procurement Executive, Federal Assistance Division

(A/OPE/FA), Guidelines for Application and Administration for Federal Assistance Awards Issued by the Department of
State, (Version 1.2 03-2011), pp. 21-22.
5 Department of State, Bureau of Administration, Federal Assistance Policy Handbook, (Version 1.2), March 2011, pp. 28-

29.
6   Foreign Assistance Act of 1961 § 481, 22 U.S.C. § 2291(a)(4).

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                 Page 3
Figure 1 - JSSP and JTTP Regional Training Locations in Afghanistan




Source: SIGAR analysis of State data.
Note: These maps show regional offices for the JSSP and JTTP. The JSSP also used mobile training teams that traveled to
provinces outside the permanent training locations to conduct courses and seminars. The JTTP is also conducting similar
mobile training activities. The JTTP Kabul-based mobile team provides training in remote or insecure provinces where JTTP
does not have a permanent presence. The locations of the mobile training activities are not shown on the maps.



In addition to INL’s JSSP and JTTP, other U.S. government agencies manage programs intended to improve
Afghanistan’s justice sector. For example:
          USAID’s Rule of Law Stabilization Program—Formal is designed to provide legal education for new and
           existing Afghan judges, provide administrative capacity building for Afghanistan’s Supreme Court,
           support Afghanistan’s law and Sharia faculties, and help the Supreme Court and the Ministry of
           Justice conduct outreach to Afghans.
          Department of Justice’s Seven Step Training Seminar aims to teach police, prosecutors, and judges
           the fundamentals of critical and analytical thinking using Afghan law and practice.


INL’S MANAGEMENT AND OVERSIGHT OF THE JSSP CONTRACT LIMITED ITS
ABILITY TO ASSESS THE CONTRACTOR’S PERFORMANCE AND THE PROGRAM’S
CONTRIBUTION TO JUSTICE SECTOR DEVELOPMENT

JSSP Contract Requirements Were Poorly Defined
The Federal Acquisition Regulation states that, “requirements for services are clearly defined and appropriate
performance standards are developed so that the agency’s requirements can be understood by potential
offerors and that performance in accordance with contract terms and conditions will meet the agency’s
requirements.”7 However, in a number of areas, requirements in the JSSP statements of work for the contracts
implementing the JSSP did not clearly define key contract terms and requirements. For example, one major
purpose of the JSSP was to develop a case management system to track and record cases throughout
Afghanistan’s judicial system. PAE was required to propose “a robust plan for ensuring GIROA [the Afghan
government] sustainability” of the case management system. However, the contract’s statement of work did

7   FAR 37.502.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                   Page 4
not define what would qualify as a “robust” plan or what PAE is expected to deliver in terms of “sustainability.”
The requirement to deploy the case management system across Afghanistan also did not demonstrate an
understanding of likely challenges to implementing such a system. Under the May 2011 statement of work,
PAE was supposed to complete a nationwide case management system by May 2012 to help track cases
throughout Afghanistan’s justice system. However, geographic, logistical, and other challenges, such as
traveling to remote locations and not having internet access in many parts of the country, prevented PAE from
expanding the electronic, internet-based case management system beyond 7 of Afghanistan’s 34 provinces.
INL’s May 2012 modification to the contract removed the requirement for a nationwide electronic case
management system, requiring only that a “roll-out” be established in seven provinces.8 In its comments on a
draft version of this report, State noted that the case management system has been used to identify violations
of defendants’ due process rights, including cases experiencing delays and has thus provided Afghan justice
officials with information needed to address areas of concern.
Another example of a poorly-defined contract requirement is the requirement for PAE to provide a plan to assist
the Afghan Ministry of Women’s Affairs on issues of “gender mainstreaming” among other justice institutions.
The statement of work did not define “gender mainstreaming,” specify which “gender mainstreaming” issues
PAE should address, or identify the “other justice institutions” to which the assistance should be directed.
State contracting officials we spoke with told us that some JSSP contract requirements were poorly defined
and that this lack of specificity resulted in the deliverables actually provided to INL by PAE being “useless.”
These officials said they could work with INL officials to revise specific deliverables, but that this had not yet
happened and, ultimately, INL would be the final authority on what deliverables would be in the contract.


INL Did Not Perform All Required Oversight Duties
INL conducted some monitoring of PAE’s activities. For example, the JSSP contract required PAE to produce
weekly and monthly narrative program reports, which included summaries of work performed as well as
information from PAE’s discussions with Afghan program participants. INL officials told us they used these
reports to make improvements to the program. They also told us they monitored the program’s activities
through discussions between Washington, D.C. and Kabul-based INL staff and through weekly telephone calls
and email conversations with PAE officials.
Nevertheless, not all of INL’s oversight activities were conducted as required. For example, the JSSP contract
states that INL CORs are to perform regular inspections and surveillance of PAE’s activities and to document
their findings in monthly reports. However, INL could not provide us with monthly reports or any other
documentation demonstrating that the CORs overseeing the JSSP had conducted required oversight activities
from May 2010 to December 2011. In addition, the JSSP contract requires PAE to provide monthly quality
assurance reports that could be used to assist INL CORs in conducting their oversight activities. However, INL
could not provide PAE’s quality assurance reports for May 2011 or for the 17 months between August 2011
and December 2012, representing nearly half of the contract’s period of performance. Although the quality
assurance reports were required by the contract, INL officials told us they did not find these reports valuable,
noting they were not substantive and, instead, were only one or two-page summaries of PAE activities. In its
comments on a draft version of this report, State acknowledged the absence of complete quality assurance
files, but noted that, since January 2013, it has made significant improvements, including record keeping,
standard checklists for all areas of performance, and communications improvements with the contractor’s
quality control staff.
INL also had difficulty keeping track of program costs. The Federal Acquisition Regulation requires agencies to
carefully oversee cost-reimbursement contracts—contracts “that provide for payment of allowable costs, to the
extent prescribed in the contract.”9 However, State contracting officials told us that the department’s system

8   The seven provinces were Kabul, Heart, Balkh, Nangarhar, Kandahar, Khost, and Paktia.
9   Federal Acquisition Regulation Subpart 16.3.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                              Page 5
for tracking and reviewing PAE’s invoices and receipts to determine allowable costs was ineffective. For
example, the officials said it is not easy to determine whether the invoices and payments listed in the system
are accurate. This results in a risk that State could pay PAE for costs that have already been reimbursed or that
are unallowable under the contract. State is taking actions to resolve these problems by modifying the
department’s electronic system to better track contract invoices and receipts. Specifically, State is modifying
its “MetaStorm” electronic system to improve management controls of invoice approvals, minimize risk of
improper payments, and improve invoice processing timelines.
INL also neglected to ensure that PAE provided required contract deliverables in a timely manner. For example,
the May 2010 renewal of the JSSP implementation contract required PAE to develop an internal quality control
plan. The contract noted that the quality control plan would delineate PAE’s approach to ensuring the quality of
services performed at all program locations, describe the process for identifying and resolving problems, and
describe the responsibilities of the different levels of PAE’s management within its quality control system. In
addition to improving PAE’s ability to provide quality services to the government, such a plan could have also
improved INL’s ability to oversee PAE. Nevertheless, PAE did not develop a draft of this plan until September
2012—over 2 years after the contract was signed—and State did not approve the plan until February 2013—
nearly 3 years after the contract was signed.


JSSP’s Contribution to the Development of the Afghan Justice Sector Is Unclear
Initially, INL relied primarily on anecdotal information from periodic program reports, as well as discussions
with PAE and Afghan participants, to measure the JSSP’s achievements. For example, INL looked at PAE’s
program reports to identify specific examples of the JSSP’s major accomplishments, such as how a particular
technique learned in the program contributed to a case or investigation’s success.
INL did not develop a performance management plan detailing specific performance metrics for JSSP until
October 2012—about 2.5 years after it signed the May 2010 contract with PAE. Objectively measuring how well
a program is meeting its stated goals and objectives is a key component of performance management.10 A
balanced set of performance indicators can be used in measuring or assessing progress towards performance
goals and providing a basis for comparing actual program results with established performance goals. Such
measures can include, among other things, efficiency, output, and outcome indicators.
The October 2012 performance management plan contained performance metrics—both quantitative and
qualitative--to assess PAE’s performance, including:
        Number of JSSP training courses conducted;
        Number of Afghans attending courses;
        Total hours that JSSP staff spent advising trainees;
        Afghan trainees’ test scores before and after attending a training course;
        Number of cases logged into the case management system.
        Improvements in Afghan government ministries’ budget and procurement processes; and
        Improvements in communications across Afghan justice sector ministries.
Although this performance management plan contained specific metrics it lacked baselines against which to
assess progress and targets to which PAE could be held accountable.11 Notably, INL’s JSSP performance


10Organization for Economic Cooperation and Development, Development Assistance Committee Working Party on Aid
Evaluation, Results Based Management in the Development of Co-Operation Agencies: A review of Experience. (Executive
Summary, p.3)
11A baseline is the value of a performance indicator before the implementation of projects or activities, while a target is the
specific, planned level of result to be achieved within an explicit timeframe. (See U.S. Agency for International
Development, Performance Monitoring and Evaluation TIPS: Baseline and Targets, (Second Edition, Number 8, 2010), p.1.)

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                       Page 6
management plan acknowledges that the absence of a baseline means there is no comparison to provide a
measure of change in performance from the previous year and against which to assess program impacts.
Moreover, some of the metrics INL relies upon to determine program success, such as the number of courses
conducted and the total hours JSSP staff spent advising trainees, focus on short-term performance outputs, as
opposed to long-term performance outcomes that could help determine the JSSP’s overall effect on
development of Afghanistan’s justice sector. Although State's performance management guidance states that
evaluating a program's overall effect on its beneficiaries may be challenging because achieving outcomes is a
resource-intensive effort that takes time to appear, it also states that measuring a program's overall impact
can only be done through such an approach.12
INL’s inconsistent oversight of the JSSP and the limited steps taken to objectively assess the programs impact
on Afghan justice sector development means that after over 8 years and an investment of at least $205.5
million, INL does not know the extent to which the JSSP has contributed to the sustainability of the Afghan
justice sector.


INL’S TRANSFER OF THE REGIONAL JUSTICE SECTOR TRAINING COMPONENT
TO IDLO RAISES OVERSIGHT CONCERNS

As discussed above, State transferred one of the three JSSP components from PAE to IDLO in January 2013.
That component—the Regional Justice Sector Training component—was renamed the JTTP and is now managed
by INL as a separate program from JSSP. The Case Management System and Institutional/Administrative
Capacity Building components of the JSSP continue to be implemented by PAE.
INL officials told us there were several reasons why they chose to obtain justice sector training services from
IDLO, including:
        INL’s familiarity with and confidence in IDLO’s implementation of another program in Afghanistan.
         Specifically, INL paid IDLO over $12 million between 2010 and 2012 to implement another justice
         sector development program to, among other things, improve legal services for the Afghan people.13
         The program has since been extended and is intended to expand and improve legal aid services to
         Afghans through the Legal Aid Organization of Afghanistan. According to INL officials we spoke with,
         IDLO was the only international development organization with an exclusive mission to improve the
         rule of law in the developing world and, therefore, was the “best and only feasible partner.”
        INL’s expectation that Afghans will be more likely to cooperate with IDLO-led programs because
         Afghanistan is a member of IDLO. INL officials told us that Afghan government acceptance is critical to
         moving forward with transferring justice sector development efforts to Afghan management.
        INL’s assertion that the mechanism for transferring responsibility to IDLO—a letter of agreement as
         opposed to a procurement contract—involved fewer administrative requirements than a procurement
         contract. For example, using a letter of agreement allowed INL to avoid having to provide for full and
         open competition prior to selecting IDLO as the JTTP implementer. Similarly, using a letter of
         agreement allowed INL to avoid having to determine whether costs incurred by IDLO under the JTTP
         are allowable under the agreement.
        INL’s assertion that it was becoming increasingly difficult for PAE to operate in Afghanistan because
         the contractor could no longer use private security contractors for its protection. PAE—like other
         private contractors working in Afghanistan—is now required to use Afghan Public Protection Force

12 Department of State, Bureau of International Narcotics and Law Enforcement Affairs Afghanistan-Pakistan, Outreach
and Programs Support Unit, Justice Sector Support Program, Performance Management Plan, (October 2012.) Department
of State, Bureau of Democracy, Human Rights, and Labor, Monitoring and Evaluation Plan Primer for DRL Grantees.”
13 “Supporting the National Justice Sector Strategy for Afghanistan: Improving Security, Legal Rights and Legal Services for

the Afghan People.”

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                      Page 7
            personnel for security. The Afghan Public Protection Force is a state-owned enterprise under the
            jurisdiction of the Afghan Ministry of Interior. INL officials told us IDLO, an international organization
            with United Nations Observer Status, has a waiver that allows it to use private security contractors for
            security. State asserts that this exemption limits IDLO’s security costs and gives it more freedom of
            movement throughout Afghanistan.
INL officials told us some of the factors listed above would result in the JTTP being less expensive than its
predecessor, the Regional Justice Sector Training component of JSSP. However, INL did not conduct a
cost/benefit or other analysis to support these assertions. INL officials told us that such an analysis would be
of limited use because the JSSP was implemented in a different environment with different security constraints
than the JTTP.
Moreover, INL did not conduct a formal “lessons learned” assessment of the JSSP’s Regional Justice Sector
Training component that could be used to inform the development of the JTTP. The Federal Acquisition
Regulation underscores the need for acquisition planners to incorporate lessons learned from previous
contracts when developing new programs or contracts.14 Although a letter of agreement is not a procurement
contract subject to the Federal Acquisition Regulation, such lessons learned may have nonetheless been
useful in designing the JTTP. Instead of conducting a formal lessons learned assessment, INL officials told us
they shared some examples of JSSP’s successes and mistakes with IDLO for the organization’s use in
designing the program. For example, INL officials shared with IDLO their observations that the JSSP’s
restrictions on allowing beneficiaries to repeat training courses that they had already completed was an
obstacle to students seeking to refresh their knowledge of a particular subject matter. INL then worked with
IDLO to develop specialized follow-on seminars to allow students to refresh their knowledge. Moreover, in its
comments on a draft version of this report, State noted that PAE and IDLO are working together and sharing
information during ongoing implementation of the JTTP to, for example, avoid duplication of training.
INL officials told us they are requiring PAE to conduct a systematic, detailed evaluation of the JSSP’s Regional
Justice Sector Training component. INL originally required PAE to develop this type of evaluation in 2012.
However, in May 2013, PAE officials told us they hoped to complete the evaluation in the summer. The
evaluation has been further delayed and is now expected to be completed by the end of 2013. Because IDLO
will have been implementing the JTTP for nearly a year by that time, it is imperative that INL share the results
of the evaluation with IDLO in a timely manner.
At the time that IDLO was selected to implement the JTTP, it faced operational and financial challenges that
continue to raise concerns about INL’s decision to transfer responsibility for the Regional Justice Sector
Training component to IDLO. According to a State official working closely with the program, IDLO has faced a
high rate of leadership turnover, with four different Directors General serving in the 4-year period between
2009 and 2013. IDLO has also faced budget shortfalls. For example, IDLO’s Audit and Finance Committee
reported in November 2012 that, because of projected budget shortfalls in 2013, IDLO management needed
to develop a contingency budget. IDLO acknowledged at the time that “[t]he lack of flexibility in the budget,
coupled with IDLO’s low level of reserves means that the contingency budget would raise critical questions
about the future sustainability of the organization”.15 When we raised these issues, INL officials told us that
they have taken steps to mitigate some of these concerns, including recommending that the JTTP be managed
by a new directorate within IDLO. According to these officials, this has helped ensure that the program will
continue even if broader budgetary and organizational problems within IDLO persist. In addition, IDLO officials
told us the JTTP directorate includes its own program, budget, administration, legal, human resources, and
procurement staff that would be separate from similar positions within IDLO’s broader organization.




14   See, for example, FAR § 7.103(n), (t).
15   IDLO Contingency Budget, p. 2 (emphasis added).

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                Page 8
INL Has Limited Authority to Oversee How IDLO is Spending JTTP Funds
In July 2013, we issued an alert letter to the Secretary of State noting our concerns with the decision to
transfer responsibility for the JSSP’s Regional Justice Sector Training component from PAE to IDLO.16 In
particular, we noted that INL’s bilateral letter of agreement with IDLO seems to omit oversight provisions that
would give INL access rights similar to those enjoyed by INL under its procurement contract with PAE for
implementation of the JSSP. Unlike INL’s contract with PAE, which was subject to the protections of the FAR,
the letter of agreement with IDLO includes no clear provisions securing INL’s right to audit the program or
access records showing how U.S. taxpayer funds are being spent. In addition, although INL relies on CORs to
monitor justice sector training work, State officials reported that, because the letter of agreement is not a
procurement contract, INL has not arranged for CORs or their equivalent to monitor the regional training work
now being performed by IDLO. In its comments to a draft version of this report, State noted that INL now has
one “COR/Grant Officer Representative” position at the U.S. Embassy in Kabul.
INL could have included monitoring and evaluation provisions in the letter of agreement that would have given
it access to any IDLO financial records pertaining to the JTTP. However, INL chose not to include such
provisions. For example, the letter of agreement did not incorporate provisions similar to those that are
normally required by State to be included in letters of agreement between the United States and other nations.
State’s policy specifies that letters of agreement should include provisions:
           Giving the U.S. government the “right…to inspect and audit any records and accounts with respect to
            funds, property and contract services furnished by that party under [the] agreement to determine that
            such funds, services, or property are being utilized in accordance with the terms of [the] agreement.”
           Requiring the recipient of funds to provide information necessary to evaluate the effectiveness of the
            project operations under the terms of this agreement. 17
In our discussions with them following the issuance of our alert letter, State officials acknowledged that
oversight provisions like the ones mentioned above have been included in letters of agreement between State
and the Afghan Government, among other entities, but not in letters of agreement involving international
organizations. INL officials told us State’s policy on letters of agreement is not binding on, but could be applied
to, international organizations. State officials added that the approved JTTP program proposal prepared by
IDLO includes plans for conducting oversight. For example, IDLO submits bi-weekly, monthly, and quarterly
program reports to INL. Our review of IDLO’s document found that these plans primarily describe how IDLO will
monitor and evaluate the program, but do not detail State’s monitoring and evaluation activities.
INL officials did not provide us with a clear explanation as to why they did not negotiate for the right to demand
basic financial and programmatic information from IDLO, including information that IDLO deems confidential.
Instead, INL officials told us they do not have the authority to demand basic information from IDLO, such as
organizational charts, because it is an international organization. This explanation appears to contradict State
instructions regarding the award of funds to public international organizations, such as IDLO, which specifically
discuss the importance of auditing and records access by the U.S. government. The instructions state that
when State is the sole contributor to a program, as is the case with the JTTP, the recipient should agree “to
make available to [State] or the Comptroller General of the United States all records and documents that
support expenditures made under this program.”18
State’s written response to our July 2013 alert letter appears to concede that INL could have negotiated a
letter of agreement with IDLO that preserved INL’s right to access all records related to how JTTP funds are


16SIGAR Alert 13-6, Serious Deficiencies Related to the Afghanistan Justice Training Transition Program Administered by
the Department of State, July 22, 2013.
17 Department of State, Action Memorandum: Request for Blanket Authority to Negotiate, Conclude and Amend

International Agreements for Counter-Narcotics and Anti-Crime Cooperation, Circular 175, June 21, 1999.
18   Department of State, Instructions for PIO [Public International Organizations] Specifics, August 2013.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                  Page 9
spent.19 In particular, State noted that the “intellectual property” portion of the JTTP program proposal drafted
by IDLO grants INL access to non-confidential records concerning the JTTP specifically. In other words, INL
negotiated for the right to access some of IDLO’s intellectual property records pertaining to the JTTP. This right
of access does not, however, go so far as to allow INL to search for and access all financial records pertaining
to the JTTP, and State has not explained why it did not seek such a right of access. Moreover, State’s response
indicates that it limited its apparently modest right to access IDLO’s intellectual property related to the JTTP. As
noted above, IDLO is apparently only obligated to produce non-confidential records. This limitation on INL’s
right of access permits IDLO to be the sole determiner of what information will be released concerning the JTTP
because IDLO gets to determine what information is “non-confidential” and whether it deals “specifically” with
the JTTP. Therefore, State appears to have voluntarily given IDLO a veto over which JTTP documents may be
disclosed to U.S. government officials. Such a provision is concerning, given State’s acknowledgement that
IDLO recently underwent “broad organizational reform.”20 INL’s inability to compel IDLO to produce any records
showing how U.S. funds are spent in connection with the JTTP, a direct result of its decision to omit strong
oversight provisions in its letter of agreement with IDLO, may render INL unable to accurately account for the
use of approximately $47.8 million awarded to IDLO to implement that program.


STATE IS TAKING ACTION TO COORDINATE JUSTICE SECTOR PROGRAMS
ACROSS U.S. GOVERNMENT AGENCIES

As discussed above, other U.S. government agencies in addition to State are implementing programs to
improve Afghanistan’s justice sector. Appendix II describes key U.S. government justice sector programs in
Afghanistan. State, through the U.S. Embassy in Kabul, has been leading efforts to coordinate these programs
since 2005. Table 2 details these coordination efforts.




19 Department of State letter to SIGAR, Re: SIGAR Inspection of INL Justice Training Transition Program, September 11,

2013.
20   Department of State letter to SIGAR, September 11, 2013.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                 Page 10
Table 1 - U.S. Embassy-Kabul Justice Sector Coordination Efforts




Source: SIGAR analysis of State data.

In particular, the Embassy created the Office of the Coordinating Director of Rule of Law and Law Enforcement
(CDROLLE) in July 2010 to better coordinate justice sector programs administered by U.S. government
agencies in Afghanistan. CDROLLE’s creation marked the first time that the U.S. Embassy in Kabul classified
rule of law programs as a specific portfolio to be handled by an ambassador-rank official. CDROLLE replaced
the Rule of Law Coordinator position, which was organizationally lower within the Embassy. According to
CDROLLE officials, the office’s creation was driven by the need for better coordination between U.S. civilian
and military rule of law stakeholders. CDROLLE’s main goals were to coordinate rule of law, justice sector, and
law enforcement issues such as special crimes and detention practices among U.S. government agencies.
State and USAID officials told us justice sector coordination primarily focuses on policy level issues but also
includes coordination between agencies on their specific justice sector programs. For example, in 2012, INL’s
JSSP and USAID’s Rule of Law Stabilization Program – Formal training programs joined together with other
donors to offer a comprehensive criminal law and procedure training in Kunduz, Afghanistan, called the
National Initiative for Justice Advancement Training. This program sought to provide basic legal education on

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                        Page 11
criminal laws and procedures for judges, prosecutors, defense attorneys, and police. In addition, as a result of
greater coordination, INL and USAID officials realized that both are providing support for female Afghan judges
through the Afghan Women’s Judges Association. After discovering this duplication, INL has decided to end its
work in this area and has asked USAID to assume full responsibility for working with the association, upon
completion of its current grant.21
Embassy officials decided in July 2013 to dissolve CDROLLE and merge parts of its functions with the
Embassy’s Coordinating Director for Development and Economic Assistance to form a new, larger U.S.
Embassy Coordination Directorate. Embassy officials stated this decision would, among other things, improve
coordination of all U.S. government civilian assistance. Embassy officials told us the new Coordination
Directorate is still determining how rule of law coordination will be conducted and its director has chosen to
wait until the office is more fully staffed before finalizing specific efforts. In addition, they stated the Office of
the Special Representative for Afghanistan and Pakistan will have the authority to determine which interagency
coordination efforts will continue.
Moreover, Embassy officials told us that they are currently updating the 2009 U.S. Government Rule of Law
Strategy for Afghanistan. This strategy, among other things, looks to focus U.S. rule of law assistance in
Afghanistan on “programs that will offer Afghans meaningful access to fair, efficient, and transparent justice,”
to help increase the Afghan government’s legitimacy, and improve its perceptions among Afghans by
promoting a culture that values rule of law. The strategy also highlights the importance of using “rule of law
coordinators” to improve U.S. rule of law efforts. Embassy officials hope the revised strategy will help them to
identify overall goals for the Afghan justice sector and to develop policies and programs to achieve those goals.
However, as of August 2013, Embassy officials told us a draft of the strategy was undergoing interagency
review in Kabul and there was no specific timeline for its completion.


CONCLUSION

Strengthening Afghan rule of law and improving Afghan citizens’ access to justice is a key step in the
reconstruction. After many years of war, we recognize that improvements to the country’s justice sector may
take years, or even decades, to realize. INL, other U.S. government agencies, and international organizations
are taking significant steps to achieve these improvements; in particular, the training of judges, prosecuting
and defense attorneys, and other justice sector officials in, among other things, the importance of their
responsibilities. However, weaknesses in the design and oversight of INL’s justice sector programs may
threaten any gains that are achieved. When designing the JSSP, INL poorly defined some contractual
requirements PAE was to follow and set unrealistic goals that subsequently required contract modification. INL
also had difficulties monitoring PAE’s progress, tracking program costs, and ensuring required contract
deliverables were provided. A lack of baseline performance data and clear targets with which to evaluate PAE’s
performance has also complicated efforts to gauge the contribution of the JSSP to INL’s overall justice sector
goals.
INL’s difficulties monitoring the performance of the JSSP and JTTP have, if anything, been exacerbated by its
decision to transition from a procurement contract with PAE to a letter of agreement with IDLO, a public
international organization. INL did not conduct a lessons learned analysis of PAE’s experiences under the JSSP,
which could have informed the design of IDLO’s program. Moreover, although we do not dispute that the
oversight requirements of a procurement contract differ from those of a letter of agreement, we maintain that
when U.S. government agencies should defend their rights to access all records related to how U.S. taxpayer
funds are being spent. INL failed to include basic oversight provisions to protect the U.S. government’s right to
access all records pertaining to the JTTP and to independently audit IDLO’s work on that program. The current
agreement seems to give IDLO sole authority to determine which documents will released to the U.S.

21 In March 2011, INL provided a 3-year grant to the International Association of Women Judges. The grant provides

computers skills courses and English language training in Kabul and supports the Afghan Women’s Judges Association.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                              Page 12
government, by virtue of the fact that INL’s access to records is limited to those non-confidential documents
pertaining specifically to the JTTP. Given INL’s difficulty in tracking funds spent on the JSSP, this is an
imprudent arrangement that places at risk the $47.8 million in U.S. taxpayer dollars scheduled to be given to
IDLO under the JTTP.
The U.S. government has a variety of programs across various agencies to improve the justice sector and
strengthen rule of law in Afghanistan. The U.S. Embassy in Kabul has had some success coordinating these
programs, as evidenced by joint INL and USAID training and the elimination of a duplicative program.
Nevertheless, the Embassy’s main rule of law coordinating entity—CDROLLE—no longer exists and the Embassy
has just undergone a major organizational change with the new Coordination Directorate and some
coordination activities are on hold pending additional personnel and policy guidance. Such guidance could be
found in an update to the comprehensive U.S. Government Rule of Law Strategy. However, Embassy officials
are unsure when those updates will be completed. In our view, it is important that this strategy be completed
quickly, particularly as efforts to transfer programs to the Afghan government accelerate before the drawdown
of U.S. military forces by the end of 2014.


RECOMMENDATIONS

To strengthen U.S. government efforts to develop Afghanistan’s justice sector, we recommend that the
Secretary of State:
    1. Include in future JSSP and/or successor program contracts, specific, detailed explanations of the
       requirements to which the contractor will be held accountable, as well as baseline data and target
       indicators to be used for program and contract evaluation.
    2. Expedite completion of PAE’s evaluation of the JSSP’s Regional Justice Sector Training component and
       ensure it is shared with IDLO immediately upon its completion so that oversight can be provided in a
       timely, effective manner, and that the lessons learned identified in this evaluation are used in the
       design and implementation of the JTTP.
    3. Renegotiate INL’s letter of agreement with IDLO to include provisions that would secure the right of
       the U.S. government to audit and inspect all IDLO records related to how U.S. taxpayer funds are being
       spent on the JTTP, and obtain any information necessary to evaluate the performance and
       effectiveness of IDLO’s implementation of the JTTP.
    4. In cooperation with other U.S. agencies managing rule of law programs in Afghanistan, finalize the
       updates to the 2009 U.S. Government Rule of Law Strategy within 3 months, so that timely decisions
       can be made to guide the development and coordination of current and future justice sector programs
       in Afghanistan.


AGENCY COMMENTS

We received written comments on a draft of this report from the Department of State. State’s comments, along
with our response, are reproduced in appendix III. In addition, State included a September 11, 2013,
correspondence responding to SIGAR’s July 22, 2013, alert letter to the Secretary of State regarding our
concerns with the decision to transfer responsibility for the JSSP’s Regional Justice Sector Training component
from PAE to IDLO. Our July 2013 alert letter is reproduced in appendix IV, and appendix V contains State’s
September 2013 correspondence and our response to this letter.
State commented that it shared our goals of implementing programs free from waste, fraud, and abuse and
acknowledged the absence of complete quality assurance files prior to January 2013. Since that time,
however, State noted that it has made significant oversight improvements, including, among other things,

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                       Page 13
improved record-keeping, standard checklists, and schedules for recurring site visits. Although we commend
State for making these improvements and have modified our report accordingly, our argument that INL did not
perform all required oversight duties remains valid.
Furthermore, State commented that we “downplayed” the value of INL’s deployment of its new “MetaStorm”
business process management system. On the contrary, our draft report noted that State is taking actions to
resolve its financial management problems by modifying the department’s electronic system to better track
contract invoices and receipts. Nevertheless, we have modified the report to include additional information on
MetaStorm’s capabilities.
State also requested that we adjust the draft report’s references to the Case Management System to better
reflect that it has been useful in providing Afghan justice officials with information needed to address areas of
concern. While we have modified our report to reflect these comments, it nonetheless remains the case that
PAE was required to deploy the case management system across Afghanistan and, to date, it is only present in
7 or Afghanistan’s 34 provinces. We, therefore, maintain that the original JSSP contract requirements were
poorly defined and overly ambitious.
In addition, while State agreed that an evaluation of the JSSP program needs to be completed, it requested
that “SIGAR revise its assessment that the JTTP was not developed with JSSP lessons learned in mind.” We
disagree. As our draft report noted, no cost/benefit or other analysis was conducted to support INL’s
assertions that the JTTP program was to be less expensive than its predecessor, the Regional Justice Sector
Training component of JSSP. Moreover, INL did not conduct a formal “lessons learned” assessment of the
JSSP’s Regional Justice Sector Training component that could have been used to inform the development of
the JTTP. While we have modified our report to reflect State’s comments that PAE and IDLO worked together
and are sharing information, the fact remains that a formal evaluation of the PAE’s performance in the JSSP’s
Regional Justice Sector Training component is only now being conducted—1 year after the transition of PAE’s
responsibilities to IDLO. Such an untimely performance evaluation, in our view, reduces its usefulness in
designing JTTP.
State also took exception to our characterization of the monitoring and oversight provisions of the JTTP.
Specifically, State commented that “it would be inaccurate to assert that INL has limited authority for of IDLO’s
implementation of JTTP, as INL has secured authority for oversight of IDLO exceeding those required under U.S.
law.” Nevertheless, as our draft report noted, State did not incorporate provisions in its letter of agreement
with IDLO that are specified in State policy, including, among other things, giving the U.S. government the right
to inspect and audit any records and accounts with respect to U.S. funds and requiring the recipient of those
funds to provide information necessary to evaluate the effectiveness of the project operations. State
instructions regarding the award of funds to public international organizations, such as IDLO, specifically
discuss the importance of records access and auditing by the U.S. government. However, State’s letter of
agreement with IDLO grants INL access only to “non-confidential” records concerning JTTP—with IDLO
determining what constitutes “confidential” and “non-confidential” records. In addition, while State
commented that semi-annual reviews of IDLO will be conducted in excess of the “routine standard” of an
annual audit, there appear to be no provisions in the agreement to provide for the independent audit of the
JTTP by the U.S. government. In our view, these limitations on access to JTTP records severely constrain the
U.S. government’s ability to oversee IDLO’s implementation of the JTTP.
With regard to our recommendations, State agreed with our first recommendation that future JSSP and/or
successor program contracts include specific, detailed explanations of the requirements to which the
contractor will be held accountable as well as baseline data and target indicators to be used for evaluating
program success. Specifically, State commented that the JSSP statement of work already fulfill our
recommendation. However, State is misinterpreting the recommendation. As our draft report noted, the
existing JSSP contract had poorly defined requirements and poorly implemented oversight procedures. Our
recommendation is designed so that future contracts avoid these same deficiencies.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                          Page 14
State also agreed with our second recommendation to direct PAE to expedite completion of its evaluation of
the JSSP’s Regional Justice Sector Training component and to ensure it is shared with IDLO. State commented
that, although PAE has not yet finalized its evaluation, it plans to share the report with IDLO when completed in
the same way INL has shared numerous project documents with IDLO through the creation and continuation of
the JTTP program.
State partially agreed with our third recommendation to renegotiate the letter of agreement with IDLO to
include provisions that would secure the right of the U.S. government to audit and inspect IDLO records related
to funds furnished to IDLO under the JTTP and to obtain any information necessary to evaluate the
performance and effectiveness of IDLO’s implementation of the JTTP and safeguard U.S. funds dedicated to
the program. As discussed above, State commented that IDLO agreed to its request for semi-annual reviews of
the program beginning in 2014, exceeding the “routine standard” of an annual audit of the organization.
However, as we have noted, State still appears to have voluntarily given IDLO a veto over which JTTP
documents may be disclosed to U.S. government officials. Moreover, State has allowed IDLO sole authority to
determine which auditor conducts these semi-annual reviews and appears to have included no provision for
independent reviews by INL and other State officials, State’s Office of Inspector General, SIGAR, or the
Comptroller General of the United States, which, by law, have the right to audit U.S. government expenditures.
Finally, State agreed with our fourth recommendation to finalize the updates to the 2009 U.S. Government
Rule of Law Strategy and commented that it plans to complete these updates within 3 months as we
recommended.
State also provided technical comments that we incorporated into the report, as appropriate.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                         Page 15
APPENDIX I - SCOPE AND METHODOLOGY

In December 2012, we initiated an audit of justice sector training efforts conducted by the U.S. Department of
State (State) and how those efforts are coordinated with other U.S. agencies such as the U.S. Agency for
International Development (USAID). The audit scope expanded after initiation based on congressional interest.
In March 2013, we notified State that our audit expanded to include not only a review of the Justice Sector
Support Program’s (JSSP) regional justice training program but also a review of the two other main
programmatic components of the JSSP: the development and implementation of the case management system
and efforts to build the administrative capacity of officials with the Afghan government’s justice sector
ministries and offices.
In this audit, we assessed (1) State’s Bureau of International Narcotics and Law Enforcement Affairs’ (INL)
management of the JSSP contract and the extent to which the JSSP’s contribution to the development of the
Afghan justice sector can be measured, (2) the extent to which INL’s decision to transfer the JSSP’s Regional
Justice Sector Training component—now known as the JTTP—to the International Development Law
Organization (IDLO) advances INL’s training objectives, and (3) State’s efforts to coordinate justice sector
programs across U.S. government agencies. We reviewed documents from 2005 to 2013. We did not use
computer-processed data. We determined the data was reliable for purposes of addressing the objectives. To
assess INL’s contract management and the extent to which it can measure the JSSP’s contribution to the
development of Afghan justice sector capacity, we reviewed its contractor’s—PAE Incorporated (PAE)—
performance in meeting contract requirements. We analyzed contract documentation such as statements of
work, quality assurance reports, and periodic performance reports to ascertain State’s progress in
implementing and overseeing the program. To determine requirements for and results of implementation,
oversight, and performance management, we analyzed the Federal Acquisition Regulation, Department of
State Acquisition Regulation, Government Accountability Office reports, and State program evaluation guidance
as well as other laws, policies, and guidance relating to contract implementation, oversight, and performance
management. Additionally, we interviewed State program and contracting officials in INL, INL’s Contract
Administration and Support Division, and State’s Bureau of Administration’s Office of Acquisition Management.
We also interviewed PAE officials responsible for implementing the JSSP to obtain their views on the program,
its development and implementation, and any challenges.
To assess the extent to which INL’s decision to transfer the regional justice training component to IDLO
advances its regional justice sector training efforts, we reviewed documents explaining the transfer such as
State memoranda and transition plans as well as IDLO’s public statements. We reviewed State’s September
11, 2013, response to SIGAR’s July 22, 2013, 13-5 Alert Letter and related IDLO public statements. We
reviewed internal controls by reviewing State and federal guidance for letters of agreement, the mechanism
that State selected to fund its agreement with IDLO, such as State Circular 175, State’s Foreign Assistance
Manual, and the Foreign Assistance Act of 1961, as amended, to understand the policies, procedures, and
requirements for entering into letters of agreement. The results of our assessment are included in the body of
the report. To understand State and IDLO’s Justice Training Transition Program (JTTP), we analyzed JTTP
program documents such as the letter of agreement, the JTTP program proposal, the JTTP work plan, and the
JTTP budget and budget justification. In addition, we analyzed IDLO’s organizational documents, when
possible, to understand the organization’s mission, budget, and operational and management capacity.
Further, we interviewed State officials from INL, the Bureau of International Organizations, the Office of the
Legal Advisor, the U.S. Mission to the United Nation Agencies in Rome, and other offices to obtain State’s views
on IDLO and the JTTP. We also interviewed IDLO officials and their JTTP program implementers in Afghanistan
to understand the IDLO mission and organization and to obtain their views on the JTTP.
To assess State’s efforts to coordinate justice sector programs across U.S. government agencies, we analyzed
State and other agencies’ guidance for coordinating on justice sector and rule of law efforts such as the U.S
Government’s 2009 Rule of Law Strategy for Afghanistan. We also analyzed State, USAID, and Department of
Justice documentation for their respective justice sector programs to identify the extent to which they


SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                        Page 16
coordinated their various justice section training efforts. Additionally, we interviewed State officials from U.S.
Embassy Kabul, the Coordinating Director of Rule of Law Enforcement (CDROLLE), the Interagency Rule of Law
Committee, State INL, USAID, and DOJ as well as PAE and IDLO employees to obtain their views on the
coordination of U.S. justice sector training efforts in Afghanistan.
We conducted our audit work in Washington, D.C.; Kabul, Mazar-i-Sharif, and Herat, Afghanistan; and Rome,
Italy from December 2012 to January 2014, in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. This audit was performed by SIGAR under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                          Page 17
APPENDIX II - DESCRIPTION OF KEY U.S. GOVERNMENT JUSTICE SECTOR
PROGRAMS IN AFGHANISTAN




Source: SIGAR analysis of State, USAID, and DOJ program data.
Note: This table illustrates the programs being discussed in this report, and is only a partial representation of all the justice
sector development programs conducted by State, USAID, and DOJ.

There are similarities between the JSSP, JTTP, Rule of Law Stabilization Program—Formal, and the Seven Step
Training Seminar. For example, INL’s JTTP trains judges and prosecutors working within the Ministry of Justice,
while USAID’s Rule of Law Stabilization Program—Formal trains judges working in the Supreme Court, and
DOJ’s Seven-Step Training Seminar trains judges and prosecutors working in the Counter Narcotics Justice
Center. Similarly, INL’s JSSP trains personnel in Afghanistan’s Attorney General’s Office on preparing ministry
budgets and writing budget justifications, while USAID’s Rule of Law Stabilization Program—Formal trains
personnel in the Afghan Supreme Court to develop and manage budgets. Furthermore, the JSSP and Rule of
Law Stabilization Program—Formal both support the development of records management systems. Namely,
the JSSP supports the development of the Case Management System (designed to monitor the status of
criminal cases in Afghanistan, across all criminal justice institutions, from case initiation to completion and
used in the Afghan Ministry of Justice, the Attorney General’s Office, the Ministry of Interior, the Supreme Court,
and related justice organizations throughout Afghanistan). The Rule of Law Stabilization Program—Formal, on
the other hand, supports the development of the Afghan Court Administration System designed to better
control and organize case files, improve transparency and accessibility of case information, simplify and
standardize court filing procedures and registration books, and improve the court reporting system and used in
the Supreme Court and courts nationwide.
INL and USAID officials told us that although these programs conduct similar training and capacity building
efforts, they do not overlap because they focus on different Afghan justice sector ministries. Additionally,


SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                        Page 18
officials point out that while the JSSP’s Case Management System and Rule of Law Stabilization Program—
Formal’s Afghan Court Administration System both seek to improve administrative capacity efforts through
similar approaches and collect similar data (such as court dates, case dispositions, and biographical
information of the defendant), the Afghan Court Administration System focuses on case filing systems internal
to Afghan courts while the Case Management System is applicable to all Afghan government justice sector
ministries.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                      Page 19
APPENDIX III - COMMENTS FROM THE DEPARTMENT OF STATE




                                                                         Junuarv 15. 20 I 4

              M s. El i,-,ahcth A. Field
              A ssistant ln~peclor General for J\fghani!'lan Rt.:constru<.:tic)J1
              J 550 Crystal Drive, Suite 900
              Arlington, VA 22202

              Dear Ms. Fi eld:

                     The Bureau of International Narcotics and Law Enforcement Affairs ( TNL)
              welcomes tht! opportunity to comment on this draft Special Inspector General for
              Afghanistan Reconstruction (SIGAR) report entitled , "Support for Afghanistan' s
              Justice Sector: Stale Department Programs Need Beller Management and Stronger
              Oversight'' (dated January 20 14). INL respects SJGAR's role in safeguarding U.S.
              taxpayer investment , and we share your goals of implementing programs free from
              waste, fraud , and abuse.

                    This letter, which includes detailed responses LO tbe recommendatiOns in the
             SIGAR draft report, provides clarifications on the bureau's current operating     D See SIGAR
             practices. In Appendix I. we provide the Department of State' s September 11 ,      comment 1.
             2013 correspond~ncc responding to SIGAR's a lert letter about the .JTTP program
             Appendix 11 contains technical corrections to the SIGAR draft report. We ask that
             SIGAR rencct this information in its final report.

                     INL acknowledge& the absence of complete Quality Assurance Surveillance
             Plan (QASP) files; however, since January 2013, lNL made significant QASP D See SIGAR
             oversight improvements, including those for record-keeping. Standard QASP             comment 2.
             checklists were implemented for aJI areas of functional performance on the task
             order. We establis hed schedules for recurring siLe visits. Communication
             improved with the contractor's quality control staff; and the files are being stored
             in an electronic file-share location. We note that the tlraft report downplaycd the D
                                                                                                   See SIGAR
             val ue oCTNL's deployment (in November 2012) of the MctaStonn business
                                                                                                   comment 3.
             process marwgement sysl.em that was discussed by INL during the course of the
             audit. Witl1 MetaStorm, lNL improved fiduciary management controls for invoice
             approv:.~ls and minimizt:d 1he risk of any improper payments. We also improved
             i11voice processing timelines, which enabled greater cfCiciency in handling invoice
             rejections and minimized the risk of processing duplicate payments.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                     Page 20
                                                        • 2-

                       INI rcquc-.t that SIGAR adju~tthc n.:lcr~n~c:-. tuthc Case Management
              Sy:-ll.:m (CMS) . CMS is an ~xamph.: of a program with buy-1n amJ •mplcmentati•o
                                                                                                      See SIGAR
              commitment l'rnm Atghan JUStice institution~. CMS IS managed 1hrougJ1 the CM. comment 4.
              Monitnnng 13uurd aml im:rcascs transparency and at:<.:ou ntability among all of the
              fUSlit:e institution. involved in the cnminal case proccs!-.. CMS hru. been utililed to
              identify violations of defendants' due process rights, including cases experiencing
              procedural delays thus providing Afghan justic:e officials with the information
              needed to aLidrcss areas of concern.

                     Whi le lNIL agrees that an evalu:Hion of the .J SSP program needs 10 be


                                                                                                     D
             completed, INL requests that SIGAR revise its assessment that JTIP wa:-. not
             developed with JSSP lessons learned 111 mind. PAE and IDLO worked togcLher to
             develop formal transition plaiiS, continue to develop joint work plans, and attend See SIGAR
             regularly sched ulcd meetings to share information and to ensure coordination.         comment 5.
             JSSP has provided JTIP with saturation studies to avoid duplication of tra ining
             and to assist in identifying training needs. INL's efforts in collaboration with PAE
             :1nd J DLO cnsu red the smooth twnsition of a vital program to a more l'casib te
             structure in light ol' logistical, security, und political considerations, without any
             interruption or gaps in the provision of training.

                    INL also takes exception lo how the report characterizes the monitoring and
             oversight provisions that exist within the JTIP program. 1L would be inaccurate to o
             assert that INL has limited authority for oversight of IDLO's implemen tation of     See SIGAR
             JTIP. as INL has secured oversight abilities with JOLO exceeding those required comment 6.
             under U.S. law. These oversight measures in many cases exceed those required of
             private en tit ics. INL shares SIGAR 's strong focus on monitoring and oversight
             and for that rca:,on, worked with IDLO to negotiate an amendment to the lcllcr of
             agreement (LOA) whieh, when signed, will require increased auditing and
             information ~haring l'olJowing the SIGAR alert letter.

                  lNL requests thai the above curn.!Ctions and additions be incorporated into
             SIGAR 's final report. Additionally, INL offers the following responses to the
             recommendations contained in SIGAR 's December 2013 draft report.

             Responses to Recommendations

             Recommendation l; SIGAR recommends that futun; JSSP and/or successor
             rrogram t:Ontra•.:ts include sped fie, detai led explanations of Lhe re4uiremcntS Ill
             which the contrac10r will be held accountable as well as baseline datil and target
             1nd1cntors to he u"lcd for evaluating program success.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                        Page 21
                                                                   See SIGAR
                                                                   comment 7.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector         Page 22
                                                       - -1 -

              Recommendation 3: SIGAR recommends that lNL renegotiate the leller of
              agreeml!nt with IDLO to include provisions that would secure the right of the U.S.
              government LO audit and inspect IDLO records related to funds furnished to IDLO
              under the JITP, and to obtain any information necessary to evaluate the
              performance and effectiveness oflDLO's implementation of the JTfP and
              safeguard U.S. funds dedicated to the program.

              INL Response (Janua1·y 2014): lNL partially agrees with this recommendation,
              noting that as outlined in fNL's response to SIGAR's alert letter, located at
              http://www.state.gov/p/sca/rls/2 l4289.htm, mechanisms consistent with U.S. Law
                                                                                             D
              and the practices of member states applicable to international organizations to See SIGAR
              which they a re a party are already in place for audit and inspection of funds
              furnished to rDLO under the JTIP. The U.S. exercises its rights and
                                                                                                comment 6.

              responsibilities as a Member State to request audits and seek reporting on the
              performance of the international organization and its activities through these
              existing mechanisms funded by member state contributions. In response to
              SlGAR's draft alert letter, we are in the process of concluding a negotiated
              amendment to reflect that in addition to already required bi-weekly, quarterly, mid
              project and end of project reporting, IDLO will furnish INL with information
              necessary to evaluate the effectiveness of JTTP operations and impact.

             Given the large amount of funding allocated to JTTP, rDLO additionally agreed to
             INL 's request to exceed the routine standard of an annual audit of the organization
             at large and has agreed to identify an independent auditor to conduct semi-annual
             reviews of the program beginning in 2014. The semi-annual reviews will include
             recommendations regarding JTTP's financial and administrative processes. Our
             experience with IDLO gives us strong confidence that all information necessary to
             evaluate the performance and effectiveness ofiDLO's implementation of JTTP
             and safeguard U.S. funds dedicated to the program wi ll be provided.

             Recommendation 4: SIGAR recommends that in cooperation with other U.S.
             agencies managing rule of Jaw programs in Afghanistan, finalize the updates to the
             2009 U.S. Government Rule of Law Strategy within 3 mon ths, so that timely
             decisions can be made to guide the development and coordination of current and
             future justice sector program in Afghanistan.

             SRAP Response (January 2014): Relevant U.S. Government agencies are
             currently updating the 2009 U.S. Government Rule of Law Strategy for
             Afghanistan. The strategy will provide updated policy guidance fo r our rule of law
             efforts in Afghanistan and ensure that they are in line with our transition goals.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                      Page 23
                                                       -:   -
              Programmar ic re v iew~ ~urrenll y umkrway hy various agencies wi ll help inlom1
              fhis process. We expect Lo complete the updated slratcgy within the three month
              timeframe recommended by SIGAR.

                   We appreciate SlGAR 's thorough examination of programming in
              Atghanislan'sjustire sector. lNL looks forward to continuing to work with
              SIGAR and other relevant authorities on tht:sc issues.

                                                      Sincerely,



                                                 ~ +/t t/t...____
                                                      James A. Walsh
                                                      Executive Director




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                 Page 24
          SIGAR’s Response to Comments from the Department of State Dated January 15, 2014


    1. SIGAR’s July 22, 2013, alert letter, State’s September 11, 2013, correspondence commenting on the
       alert letter, and our response to State’s correspondence are reproduced in appendices IV and V.
    2. Although we commend State for making these improvements to project oversight and have modified
       our report accordingly, our argument that INL did not perform all required oversight duties prior to
       January 2013 remains valid.
    3. We disagree that we “downplayed” the importance of MetaStorm. Our draft report noted that State is
       taking actions to resolve its financial management problems by modifying the department’s electronic
       system to better track contract invoices and receipts. Nevertheless, we have modified the report to
       include additional information on MetaStorm’s capabilities.
    4. We have modified our report to reflect these comments. However, it remains the case that PAE was
       required to deploy the case management system across Afghanistan and, to date, it is only present in
       7 or Afghanistan’s 34 provinces. We, therefore, maintain that the original JSSP contract requirements
       were poorly defined and overly ambitious.
    5. State requested that SIGAR revise its assessment that the JTTP was not developed “with JSSP lessons
       learned in mind.” We believe State inaccurately characterized our assessment. As our draft report
       noted, IDLO and INL officials shared information and observations to help design the JTTP and we
       have modified the report to provide examples of communication between PAE and IDLO. Nevertheless,
       no cost/benefit or other analysis was conducted to support INL’s assertions that the JTTP program
       was to be less expensive than its predecessor, the Regional Justice Sector Training component of
       JSSP. Moreover, INL did not conduct a formal “lessons learned” assessment of the JSSP’s Regional
       Justice Sector Training component that could have been used to inform the development of the JTTP.
       While we have modified our report to reflect State’s comments that PAE and IDLO worked together
       and are sharing information, the fact remains that a formal evaluation of the PAE’s performance in the
       JSSP’s Regional Justice Sector Training component is only now being conducted—1-year after the
       transition of PAE’s responsibilities to IDLO. Such an untimely performance evaluation, in our view,
       reduces its usefulness in designing JTTP.
    6. We strongly disagree with State’s comment that it is inaccurate to assert that INL has limited oversight
       authority over IDLO’s implementation of JTTP. As our draft report stated, State did not incorporate
       provisions in its letter of agreement with IDLO that are specified in State policy; including, among other
       things, giving the U.S. government the right to inspect and audit any records and accounts with
       respect to U.S. funds and requiring the recipient of those funds to provide information necessary to
       evaluate the effectiveness of the project operations. State instructions regarding the award of funds to
       public international organizations, such as IDLO, specifically discuss the importance of records access
       and auditing by the U.S. government. However, State’s letter of agreement with IDLO grants INL
       access only to “non-confidential” records concerning JTTP—with IDLO determining what constitutes
       “confidential” and “non-confidential” records. In addition, while State commented that semi-annual
       reviews of IDLO will be conducted in excess of the “routine standard” of an annual audit, there appear
       to be no provisions in the agreement to provide for the independent audit of the JTTP by the U.S.
       government. In our view, these limitations on access to records severely constrain the U.S.
       government’s ability to oversee IDLO’s implementation of the JTTP.
    7. State agreed with our first recommendation, commenting that the JSSP statement of work already
       fulfill the recommendation. In our view, however, State is misinterpreting the recommendation. As our
       draft report noted, the existing JSSP contract had poorly defined requirements and poorly
       implemented oversight procedures. Our recommendation is designed so that future contracts after the
       completion of the JSSP avoid these same deficiencies.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                         Page 25
APPENDIX IV - SIGAR ALERT 13-6, SERIOUS DEFICIENCIES RELATED TO THE
AFGHANISTAN JUSTICE TRAINING TRANSITION PROGRAM ADMINISTERED BY
THE DEPARTMENT OF STATE, JULY 22, 2013




            Q siGAR I                          Office of the Special Inspector General
                                               for Afghanistan Reconstruction
                                                                                                                         John F. Sopko
                                                                                                             Specfal tnspector General




                July 22, 2013

                The Honorable John F. Kerry
                Secretary
                U.S. Department of State
                2201 C Street, N.W.
                Washington, D.C. 20520



                Dear Secretary Kerry:

                I write to alert you to serious deficiencies related to the Afghanistan Justice Training Transition
                Program administered by the Department of State, Bureau of International Narcotics and Law
                Enforcement Affairs (INL). In the course of performing an audit of rule of law programs
                managed by INL, SIGAR became aware of INL' s sole source award to the International
                Development Law Organization (IDLO) for Afghan justice sector training services. This award
                does not appear to contain basic provisions that would allow INL to ensure proper monitoring
                and evaluation of a project expected to cost U.S. taxpayers nearly $50 million.

                On December 27, 2012, INL offered IDLO $47,759,796 in exchange for work on a project titled,
                "Completing the Transition in Afghanistan: Justice Training Transition Program (JTTP)" (see
                attached). On January 2, 2013, IDLO accepted INL' s o ffer by initialing a two-and-a-half page
                Letter of Agreement. According to INL, this is the largest project IDLO has ever worked on and
                the United States has already obligated $20 million towards its completion.

                The JTTP is the most recent iteration of the regional justice sector t raining efforts tha t INL
                began in Afghanistan with the Justice Sector Support Program (JSSP). The JSSP was comprised
                of three main components: (1) regional training; (2) implementing the Case Management
                System criminal case database; and (3) building the administrative capacity of the Afghan
                government's justice sector ministries. Under the JSSP, INL relied on prime contractor PAE
                Inc. to provide services related to all three program components. INL has already ex pended
                over $200 million on the JSSP since 2005. The agreement between INLand IDLO called for
                IDLO to replace PAE as the provider of regional training services to the Afghan justice sector,
                although PAE continues to implem ent the two remaining JSSP components.

                SIGAR is already investigating significant concerns raised regarding award and managem ent of
                the PAE contract by an office reporting to Undersecretary for M anagement Patrick F.
                          1
                Kennedy. In light of those concerns, SIGAR was dist urbed to learn that the IDLO agreement
                contains even fewer oversight requirements than the PAE contract. This development
                indicat es that INL m ay be sca ling back its oversight of a program t hat is central to U.S. effor ts
                to promote the ru le of law in Afghanistan and which involves millions of dollars of taxpayer
                money.


                1
                 Letter from Senator Claire McCaskill to Special Inspector General for Afghanistan Reconstruction John F.
                Sopko (February 15, 2013)and reply to Chairman Claire McCaskill (Ma rch 13, 2013 ).


                1550 Crystal Drive, 9th Aoor      Mall: 2530 Crystal Ortve               Tel: 703 545 6000   www.slgar.mil
                Mtngton, Virginia 22202           Arlington, VIrginia 22202-3940




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                                         Page 26
                                                                                - 2-




                For example, although INLand the Bureau of Administration relied on Contracting Officer's
                Representatives (CORs) to monitor work performed in Afghanistan under the PAE training
                contract, State Department officials told SIGAR that INL has not arra nged for CORs to monitor
                the work now being performed by IDLO. SIGAR was also told by State Department officials
                that INL' s Contract Administration Support Division is not required to conduct line-by-line
                oversight of costs associated with the work performed under the IDLO agreement. This
                approach is in direct contrast to the line-by -line cost oversight performed on the PAE contract,
                which normally allow s the government to evaluate the validity of contractor costs before
                making payment. INL officials also told SIGAR auditors that they do not have the authority to
                demand basic organizational and project information from IDLO because it is an international
                organization.

                INL officials' assertion that they do not have authority to compeiiDLO to produce information
                is disingenuous: INL could have cond itioned the award on IDLO submitting to appropriate
                oversight. This omission is particularly disturbing given that INL chose IDLO as the sole project
                implementer.

                Moreover, the IDLO agreement appears to deviate from established State Department policy.
                In response to several SIGAR requests for copies of the guidelines, rules, and regulations that
                INL officials follow when d rafting agreements like the one with IDLO, SIGAR obtained a copy of
                                                           1
                a State Department action memorandum, which includes a template for drafting such
                agreements.

                Most strikingly, the template contains a "required" provision establishing INL's "monitoring
                and evaluation" rights under agreements like the o ne signed with IDLO. This provision states,
                in pertinent part:

                                      A.   Each party shall have the right . .. (2) to inspect and audit any records and
                                           accounts with respect to f und s, property and contract services f urn ished
                                           by that party under this agreement to determine that such funds, services
                                           or property are being utilized in accorda nce with the terms of this
                                           agreement .

                                                                                           * ***

                                      C.   Each party will furnish the other with information necessary to evaluate
                                           the effectiveness oft he project operations under the terms oft his
                                           agreement . At the termination of the project a completion report shall be
                                           issued as an integral part of this process. The completion report will
                                           include a summary of United States Government and [the other party's)
                                           project contributions, a record of activities performed, objectives
                                           achieved and related basic data.



                1
                    Action Memorand um fro m Ra nd Beers (INL) to Frank E. Loy (J une 21, 1999).


                 1550 Crystal Drive, 9th Floor       Mailing 2530 Crystal Drive        I   Tel 703 545 6000   I   www.sigar.mil
                 Arlington, Virginia 22202
                                                 I   Arlington, Virginia 22202-3940




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                                  Page 27
                                                                                -3-




                This provision w as included in an agree ment between the State Department and the Government of
                                                     3
                t he Islamic Republic of Afghanistan and SIGAR fou nd examples of other State Department
                agreements co ntaining t his provision as recently as 2012.4 Yet inexplicably, this provision w as not
                includ ed in t he IDLO agreement. This omiss ion raises red flags regarding the leve l of plan ning and
                analysis INL conducted prior to determi ning t hat IDLO would be a suitable implementing partne r. It
                also calls into question why INL wo uld award nearly $50 million to IDLO without requiring the same
                level of transparency it requires from a f oreign government or a government contracto r.

                Preliminary information gathered by SIGAR auditors suggests that IDLO is ill-prepared to ma nage
                and account for how U.S.-tax payerfunds w ill be spent o n the JTIP. Documents provided to SIGAR
                indicate that IDLO's ann ual budget is about $27 million (at €1.32 to the do llar). A State Depa rtment
                official told SIGAR aud itors that IDLO's budget has declined in recent yea rs, even as its portfolio of
                projects has increased, f orcing IDLO to implement its projects w ith less fund ing. Accord ing to this
                officia l, IDLO also lacks proper internationa l financial certifications, which prevents it f ro m va lidating
                its internal spend ing. Therefore, in the absence of further explanation, it seems ill-considered f or
                INL to have awarded almost $50 million to an organization that may not have t he ability to account
                for t he use ofthose funds, under an agreeme nt in which INL failed to require proper provisions for
                oversight.

                The oversight risks associate d w ith INL's sole source award prompted SIGAR to request substantive
                informat io n d irectly from IDLO. How ever, IDLO has refused to f ully comply w ith SIGAR' s repeated
                requests for information regarding its budget , organizational struct ure, and financial relationship
                with the U.S. government. IDLO has also refused to provide complete copies of the materia ls it uses
                to help train Af ghan justice sector officials under its award from INL. IDLO' s failure to comply with
                these requests raises serious concerns rega rding its commitment to transparency and w illingness to
                acknowledge the authority of the U.S. government to oversee how U.S. taxpayer funds are spent.

                Immediate transparency is necessa ry to help e nsure that INL' s sole source award to IDLO does not
                t urn into a blank check, even if that mea ns renegotiating the current agreement to provide for
                proper oversight. If the State Departme nt is not able to ensure proper oversight, SIGAR may be
                obligated to issue a letter pursuant to section 5 (d) of the Inspector Ge neral Act of 1978, as
                amended. In addition, because INL's failure to incl ude proper oversight provisions in the IDLO
                agreement has hinde red SIGAR's ability to obtain information from IDLO, it may also be necessary
                for SIGAR to subpoena IDLO to compe l the production of any and all records IDLO posse sses related
                to its operations in Afghanista n. On a related point, I trust that INLa nd t hose offices re porti ng to
                Undersecretary Kennedy w ill be fully tra nsparent as SIGAR continues its aud it of the PAE contract
                and its transition t o IDLO.



                 3
                  Letter of Agreement on Police, Cri minal Justice, a nd Counter narcotics Support Program s Between t he
                 Government of t he United St ates of Ameri ca and t he Is la mic Repu b lic of Afghanistan ( March 6, 2006).
                4
                  See, e.g., Letter of Agreement on Na rcot ics Control and Law Enforc em ent Between the Government oft he
                 United States of America and the Government of the Dominican Rep ub lic (Septe mber 7, 2012).


                 1550 Crystal Drive, 9th Floor       Mailing 2530 Crystal Drive       I                      I
                 Arlington, Virginia 22202
                                                 I   Arlington, Virginia 22202-3940       Tel 703 545 6000       www.sigar.mil




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                                  Page 28
                                                                        -4-




                SIGAR recommends that the State Department address the oversight deficiencies in INL's agreement
                with IDLO and review the circumstances that led to IOLD's selection as the JTIP implementer.
                Moreover, Sf GAR recommends that the State Department review all similar contracts, grants, and
                other agreements related to Afghan istan reconstruction to ensure that arrangements have been
                made for appropriate oversight.

                Thank you for your attention to this important matter. Please do not hesitate to contact me should
                you have any questions.

                                                                                  Sincerely,




                Enclosure:

                Letter of Agreement Between Department of State !lnd
                The International Development Law Organization (December 27, 2012)




                1550 Crystal D~ve. 9th Floor
                Mlngton, VIrginia 22202
                                               Mailing 2530 Crystal DMve
                                               Mlngton, Vlrglnla 22202-3940
                                                                              I   Tel 703 545 6000   I   www.sfgar.mll




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                         Page 29
                                                                   United States Department of State
                                                                   Washington, D.C. 20520
                                                                   www.srare.gov

                                                                   DEC 2 7 201Z
             UNCLASSIFIED

             ACTION MEMO FOR ACTING ASSISTANT SECRETARY PEREZ

             FROM:               INLIAP - Al Matano,    Actin~

             SUBJECT:            Lntemational Law Development Organization (IDLO)
                                 Contribution Letter for Justice Program in Afghanistan

             Recommendation

                   That you approve and sign the attached funding letter from JNL/AP to the
             international Development Law Organization (IDLO) to fund the Justice Training
             Transition Program (JTTP), which represents the de-sc<Jped training portion of the
             current Justice Sector Support Program (JSSP), in the amount of$47,759,796 in
             incremental funding, over 30 months.

                   Approve _    ___,1.~
                                      . .,.~=/
                                             __      Disapprove _ _ _ _ __

             Background

                    This is an action request to provide $47,759,796 to LDLO to fund the newly
             created program: "Completing the Transition in Afghanistan: Justice Training
             Transition Program (JTTP)." JTTP will continue the de-scoped training portion of
             the JSSP contract currently implemented by Pacific Architects & Engineers. IDLO
             will take over the portion of the program which provides nationwide justice sector
             training.

                    Due to the evolving operational environment in Afghanistan, 1NL has
             determined that lDLO is the best partner to carry out the ultimate goal of
             transitioning the justice sector training program from an externally implemented
             project to an Afghan Government-operated and managed continuing legal
             education program. INL believes that this change is necessary to reach the final
             stage in the plan to transition the training program to the Afghan government.




                                               UNCLASSIFIED




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                       Page 30
                                               UNCLASSIFIED
                                                    2
                   The new program capitalizes on JDLO's unique relationship with the
             Government of Afghanistan, which is a member state, lDLO's fundamental
             expertise in legal training, and its years of experience operating in Afghanistan.

                   This program will be incrementally funded through the 30-month period of
             performance and $20,000,000 has been currently identified from the FY 2012
             Washington-held Administration of Justice (IN41AF25) project.

             Attachment:
                   Funding Letter to IDLO Director General Irene Khan

             Fiscal Data:
             1911231022000C- 2078- 2078328D 15-2761--4131- IN41AF25- 0l9525--
             $20,000,000.00




                                               UNCLASSIFIED




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                  Page 31
                                                               United Stute.'i Department of State
                                                               Bureau for I ntcrnutional Narcotic~
                                                               11nd Law Enfortcruent Arrairs

                                                               Wn .\hi11glot1, D.C. 211520

                                                                     DEC 2 7 2012
             Dear Director General Khan:

                     This letter is to inform you that, under the authority of the Foreign
             Assistance Act o f l961 , as amended, the Government of the United States of
             America, through the U.S. Department of State's Bureau of International Narcotics
             and Law Enforcement Affairs (INL) will provide $47,759,796 to the International
             Development Law Organization (IDLO) for the project "Completing the Transition
             in Afghanistan: Justice Training Transition Program (JTIP)," as described in the
             attached program proposal and budget, pending availability of funds. The funds
             wi II support a program which will provide nationwide justice sector training, and
             will transfer operations and management to the Afghan government. Your
             countersignature on this letter acknowledges acceptance of these funds and your
             agreement to comply with the terms and conditions set forth in this letter, and
             constitute firm commitments of the U.S. government and lDLO. None of the
             funds provided may be used for other projects without express written consent.

                      The actions to be taken and the resources to be provided by the U.S.
             government and I DLO in support of the proposed program are set forth in this
             letter and the enclosed program proposal and budget, and constitute firm
             conunitments of the U. S. government and IDLO. Future funding for this project is
             contingent upon the availability of duly authorized and appropriated funds,
             satisfactory progress toward project goals, and approval by the U.S. Department of
             State.

                    IDLO is to provide TNL with quarterly program and financial reports on the
             activities undertaken with these funds with particular attention to the performance
             indicators enumerated within the program proposal. These rep011s should be
             submitted not later than 30 days after the end of each quarter in accordance with
             the attached program proposal. A final report should be provided upon completion
             ofthe program within six months ofthe date of completion. We anticipate that
             IDLO will do all in its power to minimize overhead costs so that funding can be
             directed towards implementing the project proposal. The terms and conditions of
             the project may be amended by mutual written agreement. IDLO will cooperate
             with TNL to ensure that funds provided in this Jetter of agrt!ement are implemented
             consistent with U.S. Department of State requirements including the obligation in




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                     Page 32
                                                       -2-

             some cases to take appropriate measures or, if necessary, to terminate assistance if
             the recipient organization or key individual of such an organization is found to
             have been convicted of a narcotics offense or to have been engaged in drug
             trafficking.

                    As required by U.S. law and regulations, IDLO shall make reasonable
             efforts to ensure that none of the funds provided through this letter are provided to
             or through a known drug trafficker. IDLO also agrees to use reasonable efforts to
             ensure that none of these funds are used, directly or indirectly, to provide support
             to individuals or entities associated with terrorism. Reasonable efforts include
             ensuring that all grants and contracts used to carry out these projects will include
             provisions corresponding to the terrorism and drug trafficking requirements of this
             paragraph with respect to all recipients of these funds. U.S. funds cannot be used
             to pay any contractors or sub-contractors who are on the U.S. Treasury Office of
             Foreign Assets Control List, which may be found at
             https://sdnsearch.ofac.treas.aovt.

                  While IDLO will have primary project management responsibility, the U.S.
             Department of State requires close coordination between IDLO project
             management personnel and INL 's Afghanistan/Pakistan Office (INL!AP) and
             JNL/Kabul Office. To this end, INLIAP will designate one or more of its staff
             members to monitor IDLO's performance.

                    U.S. law does not penuit IDLO to earn interest on funds provided. If
             interest is earned on any such funds, IDLO shall provide INL with a year-end
             accounting and send to the attention of INL/AP, through the U.S. Mission to the
             UN Agencies in Rome, a certified check made out to the order of the United States
             Treasury for the amount of the earned interest.

                    In addition, consistent with Section 620M of the Foreign Assistance Act,
             U.S. funds shall not be provided to fumish assistance, including training, to any
             unit of the security forces (including customs and border police) where there is
             credible information that such unit has committed gross violations of human rights.
             Should IDLO include members of security force units in the targeted audience,
             IDLO will provide each applicable candidate's name and identifying information
             concerning any police unit(s) not less than 45 days prior to the commencement of
             training, and IDLO will not proceed with training of any security force member
             until advised that this human rights vetting has been successfully completed.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                     Page 33
                                                       -3-

                     To comply with U.S. procedures for providing these funds to lDLO, please
             confirm to me in writing as soon as possible, your response indicating fDLO's
             acceptance of the terms an.d conditions set forth in this letter. Our receipt of this
             letter, with your counter signature below indicating your acceptance of the terms
             and conditions herein, will serve as the official U.S. obligation of $20,000,000.
             The U.S. government's obligation for performance of this agreement over the
             amount of$20,000,000 is contingent upon the availability of appropriated funds.

                    Please provide your response through the U.S. Mission to the UN Agencies
             in Rome. The funds provided herein will be transferred to IDLO as soon as
             practicable following my .receipt of your acceptance.

                                                     Sincerely,



                                                       ~~ <}'2_ /
                                                     Carol Z. Perez J       0
                                                     Acting Assistant Secretary

             Enclosures:
                I. IDLO Program Proposal
                2. IDLO Program Budget
               3. U.S. Fiscal Data


             Countersigned:

             Name:                                                 Date: _______________
                     --------------------




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                     Page 34
                                                  Fiscal Data

             1911231022000C- 2078- 2078328Dl 5- 2761-4131 - JN4IAF25-019525--
             $20,000,000.00




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                Page 35
APPENDIX V - DEPARTMENT OF STATE’S SEPTEMBER 11, 2013, RESPONSE TO
SIGAR’S ALERT LETTER



                                                                   United States Department of State
                                                                   Washington. D.C. 20520
                                                                   www.state.gov



                                                                   September 11, 2013


            Mr. John F. Sopko
            Special Inspector General for Afghanistan Reconstruction (SJGAR)
            2530 Crystal Drive
            Arlington, Virginia 22202

            Re: SIGAR Inspection oflNL Justice Training Transition Program

            Dear Mr. Sopko:

            This is in response to your letter about the U .S. Department of State's partnership
            with the International Development Law Organization (IDLO) to implement the
            Justice Training Transition Program (JTTP) in Afghanistan.




                                                                                                   D
            The Department of State respects the role played by the Special inspector General
            for Afghanistan Reconstruction (SIGAR) in safeguarding U .S. taxpayer
            investment, and we share your goals of implementing programs free from waste,
            fraud, and abuse. The Department of State will continue to work closely with your
            office to address questions or concerns with any of our assistance programs           See SIGAR
            associated with reconstruction in Afghanistan. Particularly as we heed Congress'
                                                                                                  comment 1.
            clear interest in seeing the U.S. government move away from the use of private
            contractors - and as we gradually reduce the military footprint that ensures security
            for U .S. government employees implementing assistance and development
            programs on the ground in Afghanistan- we are, of course, intent on finding



                                                                                                   D
            responsible implementing partners among international organizations and non-
            profit, non-governmental organizations.

            The Department has carefully reviewed your alert letter of July 22,2013 and the
            programs that it discussed. We found that the results of JTTP thus far have been
                                                                                                   See SIGAR
            impressive, and the robust oversight and monitoring and evaluation requirements
            we put into place in our agreement with IDLO are fully functioning and have            comment 2.
            revealed no deficiencies in program performance or management.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                       Page 36
                                                                   See SIGAR
                                                                   comment 3.




                                                                   See SIGAR
                                                                   comment 4.




                                                                   See SIGAR
                                                                   comment 5.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector       Page 37
                                                                                                3

            Why the International Development Law Organization?

            The Department of State has been engaged in criminal justice sector training and
            development projects throughout Mghanistan since 2003. The primary vehicle for
            training had been the Justice Sector Support Program (JSSP), which began in 2005
            and was implemented by for-profit, commercial contractor Pacific Architects and
            Engineers (PAE). Due to the changing operational and security environment in
            Afghanistan, INL believed that during and after the security transition, the regional
            training efforts of JSSP could no longer be adequately implemented by an
            institutional contract with a private U.S. company. There were two primary
            reasons. First, during and after military transition, private contractors would no
            longer be able to utilize regional training centers previously secured by
            international forces, as these platforms were transferring to Afghan government
            control. Second, U.S. companies like PAE would not be exempt from President
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 6.
            Karzai' s decrees banning private security contractors and creating the Afghan
            Public Protection Force (APPF), creating an uncertain future for this critical
            training initiative.

            INL examined several options for continuing nationwide justice sector training in
            Afghanistan. INL ultimately selected IDLO as the best partner, and also the only
            feasible partner. With eleven years of experience in Afghanistan, IDLO had strong
            local partnerships and is a respected and known organization to the Government of
            Mghanistan. IDLO is the only international organization with an exclusive
            mandate to improve the rule oflaw in the developing world. As an international
            organization it enjoys a diplomatic waiver from using APPF for security
            protection. This factor weighed heavily in IDLO' s favor, as INL recognized the
            potential to significantly reduce security costs while also increasing freedom of
            movement in Afghanistan during and after transition. In addition, INL had worked
            with IDLO on a separate project in Afghanistan since 2010 and was familiar with
            IDLO's strong and effective relationships with Afghan government officials,
            and- as an international organization-IDLO does not generate profit on programs
            it implements, and accordingly would return unspent funds to the U.S. Government
                                                                                                    DSee SIGAR
                                                                                                     comment 7.
            or propose creative ways to use them to advance program objectives.

            INL was aware that IDLO was in a period of broad organizational reform and
            transition when it entered into negotiations regarding JTTP, and thus worked with
            the organization to stand up a unit within IDLO dedicated solely to the JTTP
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 8.
            project. As a result, the implementation unit for JTTP contains special
            management controls including the establishment of dedicated financial,
            procurement, human resources, monitoring and evaluation, legal, and program




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                       Page 38
                                                                                                4

            officers to run the program. The Department of State believes that the
            demonstrated program performance during the first six months of JTTP, including
            full performance, full reporting, and responsible preparation for future
            sustainability plans, reinforces the selection of IDLO.

            The Nature of the JTTP Agreement

            The funding mechanism for this project is a Letter of Agreement with a public
            international organization. The term used in your letter, "sole source," is not
            legally applicable in this circumstance, as the INL agreement with IDLO is not a
            Federal Acquisition Regulation (FAR) contract-in fact, it is not a contract at all.
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 9.


            It is a Letter of Agreement between the U.S. government and a public international
            organization to which it belongs. According to State Department Circular 175, the
            Secretary of State bas delegated authority to INL to enter into Letters of
            Agreement with both foreign governments and also public international
            organizations, although the terms of those two types of agreements differ in some
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 10.



            respects given the different status of sovereign countries versus international
            organizations with multiple member state parties.

            Consistent with this authority, lNL obligated funds to IDLO for JTTP through a
            Letter of Agreement that references two binding attachments: a Program Proposal
            and a budget. When attached to the Letter of Agreement, the 50-page Program
            Proposal became the official guiding document for project implementation; this
            document was provided to SIGAR and contains five pages exclusively addressing
            monitoring and evaluation and program oversight. The 805 line-item budget along
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 11.



            with a 34-page budget justification narrative were developed jointly by IDLO and
            INL. These documents lay out in detail the financial plan of the program, with the
            budget narrative explaining and justifying each budget line-item and accounting
            for every dollar of the $47,759,796 project. SIGAR did not specifically ask fDLO
            or the Department for the JTTP project budget or budget justification. The
            Department will provide these documents upon SIGAR's request.

            1999 State Department Action Memorandum
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 12.




            In your alert letter, you referenced language from a 1999 State Department action
            memo regarding Circular 175, and also referenced a template containing ''a
            'required ' provision establishing INL 's 'monitoring and evaluation· rights under
            agreements like the one sit,111ed with JDLO. This provision states in pertinent part:




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                    Page 39
                                                                                                 5

                  A. Each party shall have the right ... (2) to inspect and audit any
                     records and accounts with respect to funds, property and contract
                     services furnished by that party under this agreement to determine
                     that such funds, services or property are being utilized in
                     accordance with the terms of this agreement.

                                                   ****
                  C. Each party will furnish the other with information necessary to
                     evaluate the effectiveness of the project operations under the
                     terms ofthis agreement. At the termination ofthe project a
                     completion report shall be issued as an integral part of this
                     process. The completion report 1-1rill include a summary of United
                     States Government and [the other party's] project contributions,
                     a record ofactivities performed, objectives achieved and related
                     basic data. "




                                                                                                     D
            Your letter inaccurately characterizes options from the 1999 memo as binding
            requirements. For example, the 1999 action memorandum states that the template           See SIGAR
            language "could be used for agreements with international organizations" but it is       comment 13.
            not required. While this language has been used in bilateral agreements with
            foreign countries, LNL has searched its records and found no instance where this
            language has been used in an agreement with an international organization,
            including a Letter of Agreement between INLand an international organization
            signed less than two months after the approval ofthe 1999 memo you cited.

            This precedent suggests that the language proved fundamentally inappropriate for
            an agreement with an international organization for two reasons: First, the
            language requires mutual examination of any records relating to funds or services
                                                                                                     D
                                                                                                     See SIGAR
                                                                                                     comment 14.



            provided by that party. The State Department would not agree to an international
            organization examining its books or records, should an international organization
            independently make a monetary or non-monetary contribution to a project; and
            second, the monitoring and evaluation language cited only requires a completion
            report. INL went above and beyond the language you cited because we determined
            that stronger monitoring standards were necessary. INL's current standard requires
            quarterly reports in its agreements with all international organizations. Given the
            importance and cost of the JTTP project, INL set the bar even higher with this
            lDLO agreement, requiring bi-weekly, monthly, quarterly, mid-project, and end of
            project reporting. ln addition, INL conducts other oversight activities as described
            below.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                       Page 40
                                                                                                 6

            Access to IDLO Records

            The standard for access to the organizational finances and reports of international
            organizations is enshrined in U.S. law. Under the International Organizations
            Immunities Act, 22 U.S.C. § 288, IDLO is a "public international organization" in
            which the United States participates. Under this status as a public international
            organization, IDLO has a distinct legal personality and capacity to perform acts
            required to carry out its core functions. § 288 provides that IDLO "enjoys the
            same immunity from suit and every form. of judicial process as is enjoyed by
            foreign governments," and further mandates that IDLO's property and assets "shall
            be immune from search, unless such immunity be expressly waived ...The
            archives of international organizations shall be inviolable." The IDLO Program
            Proposal further elucidates this distinction in the intellectual property section found
            on page 2 of the document. It states in relevant part that:
                                                                                                      D
                                                                                                      See SIGAR
                                                                                                      comment 15.

                   The title to intellectual property in relation to all documents and
                   materials which JDLO develops under the terms ofthis program shall
                   be vested in INL or its assignee. INL shall grant to IDLO a
                   permanent, irrevocable, non-exclusive license to use, reproduce,
                   adapt and otherwise exploit all such documents and materials
                   developed by JDLO under this program. Notwithstanding the above,
                   IDLO shall retain the intellectual property or other proprietary rights
                   ofany documents and materials that pre-existed IDLO 's performance
                   under the Letter ofAgreement or that IDLO may develop or acquire
                   independently of its performance under the Letter ofAgreement.

            Under the agreement with IDLO, INL owns what it paid for and has a right to
            access it. IDLO is required to furnish to the Department any non-confidential
            records requested concerning the JTTP project specifically, and under the Letter of
            Agreement, INL owns and licenses to TDLO all intellectual property produced in
            furtherance of JTIP. IDLO is not required to release proprietary materials
            prepared prior to, or outside the scope of, the agreement with lNL. These include
            proprietary training materials being used worldwide, but not on the JTTP program
            in Afghanistan. IDLO and lNL may agree on additional safeguards to permit the
            conditional disclosure of confidential proprietary information used in the JTTP
            program in Afghanistan. It is our understanding that the only document IDLO
            refused to disclose in full (and instead provided excerpts of) was the Training of
            Trainers manual, which was not produced for JTTP training and is therefore
            outside SIGAR's mandate. When informed ofiDLO's concerns for its proprietary
            information, SIGAR did not offer any terms or conditions to safeguard this




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                        Page 41
                                                                                                7

            information. Training materials or curricula prepared for JTTP in Afghanistan
            would be furnished if requested; SJGAR has not requested these materials.

            On the broader issue of auditing IDLO as an institution, member states do not
            employ their own mechanisms to audit international organizations. Doing so
            would duplicate the work of those organizations' own auditors, constitute an
                                                                                                    D
                                                                                                    See SIGAR
                                                                                                    comment 16.
            inefficient additional burden on organizations, undennine the organizations' duty
            of confidentiality that normally exists in voluntary funding agreements between
            member states and organizations, and result in additional financial burdens to U.S.
            taxpayers, since a proportionate share of U.S. contributions to international
            organizations support the organizations' international auditing staff. To ensure
            proper financial processes, international organizations conduct external audits of
            their financial records and make those audit results available to member states.
            IDLO has its own internal auditing procedures agreed to by its member states,
            including the U.S. Government. This includes an annual financial audit conducted
            by an independent firm to international auditing standards. SIGAR has not               See SIGAR
            requested to review these materials.                                                    comment 17.

            Upon receipt of your draft alert letter, lNL engaged IDLO to discuss your
            recommendations. As previously conveyed to SIGAR, IDLO agreed to amend the
            JTTP Letter of Agreement to explicitly reaffirm INL's right to inspect IDLO
                                                                                                    See SIGAR
            records or accounts related to the JTTP program that are not of a confidential
                                                                                                    comment 18.
            nature, which both we and IDLO believe was already assured by the original
            language of the Letter of Agreement.

            Oversight of the JTTP Program

            Although JTTP was not implemented through a contract, it was and is vitally
            important to the State Department that appropriate oversight provisions were            See SIGAR
            included in the funding document, and that appropriate oversight personnel were         comment 19.
            assigned to manage the project.

            The authority to enter into a bilateral arrangement with IDLO does not stem from
            the general authority to enter into contracts, but from§ 481{a)(4) of the Foreign
            Assistance Act of 1961, as amended, which provides: "Notwithstanding any other
            provision of law, the President is authorized to furnish assistance to any country or
            international organization, on such terms and conditions as he may determine, for
            ... anticrime purposes." This authority has been delegated by the President to the
            Secretary of State, and re-delegated to the Assistant Secretary of State for




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                     Page 42
                                                                                                8

            International Narcotics and Law Enforcement Affairs with prior program approval
            by the Director of Foreign Assistance.

            Your reference to "contracting officer" and "contracting officer representative" are
            not applicable to bilateral international agreements. Contracting officers and
            contracting officer representatives are specific legal terms applying to the
                                                                                                    CJ
                                                                                                    See SIGAR
                                                                                                    comment 20
            administration of contracts entered into under authority to contract, and as such are
            governed by the Federal Acquisition Regulations (see FAR Parts 1.602, 1.603, and
            1.604 and definitions 2.101).

            Nonetheless, the Department recognizes that program oversight is an essential and
            vital function to ensure appropriated funds are used for their intended purposes and
            that programs are effectively and efficiently managed regardless of the type of
            instrument used to establish obligations. Under the framework of a Letter of
            Agreement, the oversight functions that a contracting officer's representative would
            perform for contracts are provided by highly skilled and experienced program
            officers. lNL assigned four program officers (a program officer and a Justice
            Team Lead in Kabul, and a program officer and a Justice Team Lead in
            Washington) to have primary oversight responsibility. Program officers have
            responsibility for frequent management meetings with IDLO, site visits, review of
            all required reporting, review of financial reporting, and verification of program
            implementation. Should changing environments or circumstances warrant program
            adjustments, program officers are permitted to negotiate modifications to the
            project which are then memorialized as amendments to the Letter of Agreement.

            As part of its management ofthe JTTP program, INL conducts continuous
            communication via daily oversight of the IDLO program through email, phone
            calls, and site visits. In addition, every week, INL offices in Kabul and
            Washington conduct a joint phone call with IDLO headquarters in Rome and its
            field team in Kabul. To date, IDLO has completed all scheduled reporting required
            under the JTTP agreement, and has worked closely with INL to ensure that the
            reporting meets INL's requirements. IDLO is diligently applying a results-based
            management approach that tracks the outputs of the programs as well as the
            outcomes and impact demonstrated in the Mghanjustice sector. INL takes
            seriously its mandate to improve the criminal justice system in Afghanistan and
            requires implementers like IDLO to demonstrate positive change as a result of
            INL-funded projects.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                    Page 43
                                                                                                  9

            Conclusion

            The Department of State values independent oversight, including from SIGAR,
            and is working closely with the oversight community to protect taxpayer resources
            and enhance and improve the return on our investment. The Department is pleased
            so far with the results of JTTP and with our partnership with IDLO. We are
            confident that we have adequate and appropriate oversight mechanisms built into
            our Letter of Agreement with this public international organization. Because of
            our collective efforts, we believe that the Government of Afghanistan now has the
            ability to deploy at least a minimally adequate and functioning system that will
            effectively support continuing reform past the 2014 military transition. JTTP will
            cement that ability with a permanent training function inside Afghan government
            justice institutions. In doing so, it will decidedly advance the national interests of
            both Afghanistan and the United States.

            We stand ready to answer any questions or supply any documents that would help
            SIGAR complete a more accurate review of the JTTP program. As always,
            members of the Department remain ready to meet at SIGAR's convenience to
            clarify any persisting questions.


                                                  Sincerely,




             ames
            Special Representative for
                                                          ;/~·a((B~Assistant Secretary for
             Afghanistan and Pakistan                               International Narcotics and
                                                                    Law Enforcement Affairs




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                      Page 44
                       SIGAR’s Response to State Department Letter Dated September 11, 2013

       1. SIGAR is unclear as to why this discussion is relevant to the issue of oversight of IDLO. Contractors
          are contractors, whether they are private for-profit organizations, private non-profit organizations,
          private non-government organizations, or “public international organizations”. If they receive U.S.
          taxpayer money in exchange for performing a service or delivering a product, they are subject to
          oversight and audit by authorized agencies of the U.S. Government.22

       2. The monitoring and evaluation requirements contained in the IDLO program proposal describe how
          IDLO will monitor and evaluate its own program performance and report that information to INL. SIGAR
          disagrees that this self-reported information is an adequate substitute for State and INL protecting the
          authority of the U.S. government to access all records related to how almost $50 million in taxpayer
          funds will be spent on the JTTP.

       3. As noted above, self-monitoring does not obviate the need for INL to protect its right to access all
          records related to how taxpayer funds are spent on the JTTP. Without the right to directly audit the
          JTTP, State and INL will be dependent on IDLO to provide an accurate accounting of how U.S. taxpayer
          funds are spent. IDLO may not be fully capable of providing such an accurate accounting, given its
          history of budget shortfalls and other financial management difficulties.

       4. Although third-party financial auditing may support program oversight, SIGAR maintains that allowing
          IDLO to choose its own auditors is a poor substitute for direct auditing by the U.S. government. As the
          agencies most immediately responsible for safeguarding how almost $50 million in taxpayer funds will
          be spent on the JTTP, it is unclear why State and INL would not secure the right to access all records
          related to that program.

       5. SIGAR disagrees with the suggestion that IDLO’s business model makes it inherently more
          accountable, less reliant on contractors, or more supportive of U.S. stabilization efforts in Afghanistan
          than a for-profit entity would be.


            According to IDLO’s Annual Management Plan for 2012, “Institutional Activities are what distinguish
            IDLO from profit-driven service providers who only act as implementing agencies for programs.”23 The
            document lists “Communication/ Stakeholder relations,” “Program Development,” and “Governance”
            as the top three areas associated with IDLO’s institutional activities.24 State has not explained how
            such activities, which appear to be distinct from program implementation, help IDLO implement the
            JTTP better than a for-profit contractor could. Moreover, State does not provide support for its
            suggestion that IDLO’s role as the JTTP implementer will reduce the U.S. government’s use of for-profit
            contractors. According to the IDLO program proposal referenced in State’s response letter, “[d]uring
            the course of the Program [JTTP], the vast majority of training will be conducted by National Legal
            Advisors, who will be contracted by the Program.”25 IDLO’s program proposal and State’s response
            letter also note that IDLO will rely on private security companies, rather than on the Afghan Public
            Protection Force (APPF), to provide security.26 Finally, IDLO has even relied on contractors to help it

22   See, e.g., National Defense Authorization Act for FY 2008, § 1229(f)(1).
23   IDLO, Annual Management Plan 2012, p. 19.
24   Id. at Annex 2.
25IDLO, Completing the Transition in Afghanistan: Justice Training Transition Program (JTTP) (“IDLO Program Proposal”)
(December 21, 2012), p. 28.
26   Id. at 43.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                 Page 45
           hire personnel for the JTTP, such as relying on an executive search company to facilitate the hiring of
           the “Chief of Party” and other leadership positions.27


       6. State has not provided support for the claim that it considered awarding the JTTP to any specific party
          other than IDLO. Furthermore, INL has not presented SIGAR with any cost comparison or lessons
          learned analysis from the Justice Sector Support Program (JSSP) indicating that hiring IDLO would lead
          to lower JTTP security costs. Finally, given that PAE continues to deliver on the remaining portions of
          the JSSP contract, it is unclear why State suggests that current Afghan policy concerning the Afghan
          Public Protection Force presents an impediment to the use of contractors and other implementers that
          are not international organizations.

       7. SIGAR disagrees with the suggestion that IDLO’s business model makes it inherently more cost
          effective or accountable than a for-profit entity. IDLO’s nonprofit status does not eliminate the need to
          determine whether the expenses it claims are appropriate. Moreover, given that IDLO charges a
          “mandatory” 12% overhead fee, which amounts to $5.1 million for the JTTP, it is unclear why State
          believes that such an arrangement will lead to cost savings.28 SIGAR maintains that U.S. taxpayer
          funds would be better protected by INL securing the substantive right to access all records related to
          the JTTP, so that it at least has the option of directly verifying the appropriateness of program costs
          and that overhead expenses are limited to 12 percent.

       8. State’s acknowledgement that IDLO was undergoing a “period of broad organizational reform” prior to
          receiving the IDLO award is a troubling understatement. In November 2012, one month before State
          awarded the JTTP agreement to it, IDLO was considering a Contingency Budget for 2013 and warning
          its members about the need for increased contributions to cover IDLO’s core costs.29

           IDLO’s contingency budget stated that “90% 0f IDLO’s operations are ‘high risk’, as noted by the AFC
           [Audit and Finance Committee].”30 IDLO also concluded that “[t]he lack of flexibility in the budget,
           coupled with IDLO’s low level of reserves means that the contingency budget would raise critical
           questions about the future sustainability of the organization.”31

       9. SIGAR maintains that the use of the term “sole source” is applicable in this circumstance. Contrary to
          State’s suggestion, the term “sole source” is used in instances other than FAR contracts to refer to the
          noncompetitive award of U.S. taxpayer funds.32 Furthermore, State has not provided SIGAR with
          evidence that it considered awarding the JTTP to any specific party other than IDLO. On the contrary,
          evidence that IDLO solicited job applications for JTTP positions in November 2012, more than one
          month prior to Acting Assistant Secretary Perez’s approval of the letter of agreement, suggests that
          IDLO was selected well in advance of the department’s formal decision-making process.33 Moreover,
          the October 2012 budget justification referenced in State’s response letter states that “[s]tart-up

27 Job announcement for IDLO “Head of Training” in the Afghanistan Program Office (“IDLO Job Announcement”). The job

announcement states that all applications are due by November 26, 2012.
28 IDLO, Completing the Transition in Afghanistan: Justice Training Transition Program (JTTP), Budget Narrative/Notes

(“IDLO Budget Narrative”) (October 16, 2012), p. 35.
29   IDLO Contingency Budget, p. 1.
30   Id.
31   Id. at 2 (emphasis added).
32See e.g., Sole Source Cooperative Agreement Award to the National Association of County and City Health Officials, 78
Fed. Reg. 54651 (September 5, 2013).
33 Job announcement for IDLO “Head of Training” in the Afghanistan Program Office (“IDLO Job Announcement”). The job

announcement is undated, but states that all applications are due by November 26, 2012.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                  Page 46
             costs have been temporary [sic] allocated to the Support to the National Justice Sector Strategy
             Program—following an amendment—but will be transferred to this Program [JTTP] once the contract is
             signed.”34 This statement suggests the selection of IDLO was expected almost two months prior to the
             actual award, given that funds for another IDLO program were apparently being used to pay JTTP start-
             up costs. Therefore, SIGAR maintains that an agreement to pay almost $50 million in U.S. taxpayer
             funds to one organization, without full and open competition, for services performed previously under
             a competitively awarded procurement contract, constitutes a “sole source” award.

       10. Given that a contract is generally defined as “an agreement with two or more parties creating
           obligations that are enforceable or otherwise recognizable at law,”35 it is troubling for State to claim
           that the “INL agreement with IDLO is not a Federal Acquisition Regulation (FAR) contract—in fact, it is
           not a contract at all.”36 At face value, this statement suggests that State believes that a program
           costing almost $50 million, which intended to sustain an investment of over $200 million in prior rule
           of law programs in Afghanistan, is not being implemented under a legally enforceable agreement.
           SIGAR also notes that State and IDLO appear to disagree over whether the letter of agreement is a
           contract, donation, contribution or some sort of hybrid arrangement. State classifies the funding
           mechanism for the JTTP as a “letter of agreement”37 or “bilateral arrangement.”38 However, the
           budget justification drafted by IDLO and cited to in State’s response letter refers to the agreement as a
           “contract” as well as a “donor contract.”39


       11. State claims that the IDLO agreement references a binding program proposal and budget. However,
           the original letter of agreement between State and IDLO lists an undated program proposal and
           budget as enclosures. The original agreement does not state that those documents are incorporated
           by reference. However, even if these documents have been subsequently incorporated into the IDLO
           agreement, they do not provide INL with full access to records related to how funds are spent on the
           JTTP.

       12. The fact that State failed to include copies of the JTTP project budget or budget justification when it
           gave SIGAR a copy of the IDLO agreement contradicts State’s representation now at this late date that
           these documents were always part of the agreement. Instead, SIGAR separately requested and
           obtained the JTTP budget and budget justification. Apparently, State is still unaware that SIGAR had
           already obtained these documents. .

       13. SIGAR disagrees with State’s characterization of this issue. SIGAR stated in its alert letter that INL
           “could have conditioned the award on IDLO submitting to proper oversight.”40 As examples of stronger
           oversight provisions, SIGAR cited State guidance listing certain provisions “required” to be included in




34   IDLO Budget Narrative, p. 1.
35   See Black’s Law Dictionary.
36   State Response Letter, p. 4 (emphasis added).
37   Id.
38   Id. at 7.
39   IDLO Budget Narrative at 1, 31.
40Letter from John F. Sopko, Special Inspector General for Afghanistan Reconstruction, to John F. Kerry, Secretary, U.S.
Department of State (July 22, 2013).

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                   Page 47
            other letters of agreement,41 such as that between the State Department and the Afghan
            government.42

            State’s response letter acknowledges that the State Department “could” have included the
            abovementioned oversight provisions in its agreement with IDLO.43 State’s letter also appears to
            acknowledge that there is no legal impediment to conditioning the JTTP award on IDLO waiving its
            immunity from certain forms of oversight. State cites the International Organizations Immunities Act,
            22 U.S.C. § 288a, for the proposition that public international organizations like IDLO “shall be
            immune from search, unless such immunity be expressly waived” (emphasis added).44 Section 288a
            also states that “[i]nternational organizations, their property and their assets, wherever located, and
            by whomsoever held, shall enjoy the same immunity from suit and every form of judicial process as is
            enjoyed by foreign governments, except to the extent that such organizations may expressly waive
            their immunity for the purpose of any proceedings or by the terms of any contract” (emphasis
            added).45 State has not articulated any specific reasons why it could not have conditioned the JTTP
            award on IDLO waiving its immunity for the limited purpose of giving State an enforceable right to
            access all records related to the JTTP.

       14. State claims that the oversight provisions referenced in SIGAR’s alert letter were “fundamentally
           inappropriate” because (1) the provisions allow each party to examine program records, (2) the
           provisions only require the completion of a report, and (3) the State Department has no record of
           using these provisions in letters of agreement with international organizations.46 These arguments are
           disingenuous. First, INL could have made the IDLO award conditional on INL having an enforceable
           right to inspect records and accounts related to the JTTP, without granting IDLO a mutual right of
           access. Second, the provision cited by SIGAR requiring a report is distinct from the provision
           establishing the right to access program records and accounts; State’s response letter erroneously
           conflates these distinct provisions. Third, even if prior agreements with international organizations did
           not include strong oversight provisions, such a past practice does not justify omitting them now. For
           example, State acknowledges in its response letter that it could amend the IDLO agreement to allow
           access to confidential IDLO records.47

       15. State’s response letter cites the IDLO program proposal’s Executive Summary as an example of how
           INL negotiated for the right to access some records pertaining to the JTTP.48 The Executive Summary
           states that “[t]he title to intellectual property in relation to all documents and materials which IDLO
           develops under the terms of this program shall be vested in INL or its assignee.”49 State asserts that
           this language means that “IDLO is required to furnish any non-confidential records requested
           concerning the JTTP project specifically, and under the Letter of Agreement, INL owns and licenses to



41   Action Memorandum from Rand Beers (INL) to Frank E. Loy (June 21, 1999).
42Letter of Agreement on Police, Criminal Justice, and Counternarcotics Support Programs Between the Government of the
United States of America and the Islamic Republic of Afghanistan (March 6, 2006).
43   State Response Letter, p. 5.
44   Id. at 6. State’s response letter erroneously cited to 22 U.S.C. § 288.
45   22 U.S.C. § 288a(b).
46   State Response Letter, p. 5.
47   Id.
48Id. at 6. Although the State Response Letter refers to this as “the intellectual property section,” the text quoted by State
comes from the “Executive Summary/Introduction” of the IDLO Program Proposal.
49   IDLO Program Proposal, p. 1.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                                      Page 48
             IDLO all intellectual property produced in furtherance of JTTP.”50 According to State, IDLO also “agreed
             to amend the JTTP Letter of Agreement to explicitly reaffirm INL’s right to inspect IDLO records or
             accounts related to the JTTP program that are not of a confidential nature…”51

             State’s arguments about intellectual property are irrelevant to the issue of State Department access to
             IDLO’s records related to the JTTP. State’s apparent acquiesence to IDLO’s insistence that it will
             provide access only to public records is particularly troublesome. In effect, State would let IDLO
             determine how much oversight will be conducted on a U.S. government program. Strikingly, State’s
             letter acknowledges that INL and IDLO may “agree on additional safeguards to permit the conditional
             disclosure of confidential proprietary information used in the JTTP program in Afghanistan.”52 Given
             that INL rule of law programs in Afghanistan have already cost U.S. taxpayers over $200 million since
             2005 and that the JTTP is intended to sustain that investment, it is unclear why State would hesitate
             to amend the IDLO agreement to secure its authority to access to all records related to how JTTP funds
             are being spent.

       16. State’s assertion that “member states do not employ their own mechanisms to audit international
           organizations” appears to contradict State’s own instructions concerning the management of awards
           made to public international organizations (PIO), such as IDLO. In particular, the U.S. Department of
           State Instructions for PIO Specifics state that PIOs receiving U.S. taxpayer funds are to agree “to make
           available to DOS or the Comptroller General of the United States all records and documents that
           support expenditures made under [programs funded solely by State].” The fact that INL did not elect to
           include such a provision in the original IDLO agreement or to amend the agreement accordingly in
           response to SIGAR’s alert letter is something that State has not yet fully explained. Moreover, in light
           of such instructions governing awards to PIOs, it is inaccurate for State to suggest that IDLO’s
           business model somehow prohibits the U.S. government from directly overseeing how taxpayer funds
           are spent on the JTTP.

       17. SIGAR disagrees that self-auditing by IDLO or its hiring of an outside auditor are adequate substitutes
           for direct oversight of the JTTP by the U.S. government. Given IDLO’s “period of broad organizational
           reform” and the need to create new units within IDLO to protect the JTTP from the rest of the
           organization,53 there is little reason to suggest that IDLO’s self-audits would provide adequate insight
           into how taxpayer funds are being spent on the JTTP. Finally, SIGAR did not request IDLO’s annual
           financial audits from State because they are publicly available on IDLO’s website.

       18. See comment 14. SIGAR disagrees that it is appropriate for IDLO to determine the extent to which the
           U.S. government will be able to oversee the use of almost $50 million in taxpayer funds. By allowing
           IDLO to limit U.S. government access rights to only program records that are “not of a confidential
           nature,” State has, in effect, given IDLO a veto over what JTTP records are subject to oversight.

       19. See comment 9. SIGAR notes that State and IDLO appear to disagree over whether the letter of
           agreement is a contract, donation, contribution or some sort of hybrid arrangement. State classifies
           the funding mechanism for the JTTP as a “letter of agreement”54 or “bilateral arrangement.”55
           However, the budget justification drafted by IDLO and cited to in State’s response letter refers to the

50   State Response Letter, p. 6 (emphasis added).
51   Id. at 7 (emphasis added).
52   Id. at 6.
53   Id. at 3.
54   Id. at 6.
55   Id. at 7.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                             Page 49
            agreement as a “contract” as well as a “donor contract.”56 Whatever State calls the legal instrument
            involved in this transaction, SIGAR rejects State’s notion that the U.S. government has no right to
            access and audit records pertaining to IDLO’s use of nearly $50 million in U.S. taxpayer money.

       20. As indicated in our alert letter, SIGAR’s concerns regarding oversight of the JTTP were based initially on
           the fact that the program is being implemented through a funding mechanism that does not appear to
           be subject to the FAR. For example, IDLO’s program proposal states that “IDLO shall apply its own
           procurement rules when acquiring goods, works, or services in connection with [the JTTP].”57 These
           concerns led our auditors to repeatedly ask State to explain why INL changed the regional training
           component of the JSSP from a FAR-based contract with PAE to a letter of agreement with IDLO. The
           references to contracting officers and contracting officer representatives (CORs) in SIGAR’s alert letter
           were examples of some of the protections that the IDLO agreement lacks. SIGAR welcomes INL’s
           efforts to increase oversight of the JTTP through the use of program officers. However, SIGAR
           maintains that self-reporting by IDLO, emails and phone calls with IDLO’s Rome office, and site visits,
           will be of limited utility unless State also secures the right to access all IDLO records regarding how
           JTTP funds are being spent.




56   Id. at 1, 31.
57   IDLO Program Proposal, p. 43.

SIGAR 14-26-AR/State Department Support of Afghan Justice Sector                                             Page 50
APPENDIX VI - ACKNOWLEDGEMENTS

Eugene Gray, Senior Audit Manager
Jessica Drucker, Senior Analyst
Tristin Jones, Analyst




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector   Page 51
                                      This audit report was conducted
                                      under project code SIGAR-073A.




SIGAR 14-26-AR/State Department Support of Afghan Justice Sector        Page 52
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
